<html>
<title> - DRAFT LEGISLATIVE PROPOSAL ON CYBERSECURITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





              DRAFT LEGISLATIVE PROPOSAL ON CYBERSECURITY

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON CYBERSECURITY,
                       INFRASTRUCTURE PROTECTION,
                       AND SECURITY TECHNOLOGIES

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 6, 2011

                               __________

                           Serial No. 112-61

                               __________

       Printed for the use of the Committee on Homeland Security


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

74-646PDF                 WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Janice Hahn, California
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

                                 ------                                

SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                Daniel E. Lungren, California, Chairman
Michael T. McCaul, Texas             Yvette D. Clarke, New York
Tim Walberg, Michigan, Vice Chair    Laura Richardson, California
Patrick Meehan, Pennsylvania         Cedric L. Richmond, Louisiana
Billy Long, Missouri                 William R. Keating, Massachusetts
Tom Marino, Pennsylvania             Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                    Coley C. O'Brien, Staff Director
                 Zachary D. Harris, Subcommittee Clerk
        Chris Schepis, Minority Senior Professional Staff Member














                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies...................................................     1
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies...................................................     2

                               Witnesses

Mr. Gregory E. Shannon, Chief Scientist for Computer Emergency 
  Readiness Team, Software Engineering Institute, Carnegie Mellon 
  University:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Ms. Cheri F. McGuire, Vice President of Global Government Affairs 
  and Cybersecurity Policy, Symantec Corporation:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Mr. Gregory T. Nojeim, Senior Counsel and Director, Project on 
  Freedom, Security and Technology, Center for Democracy and 
  Technology:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20
Mr. Kevin R. Kosar, Analyst in American Government, Congressional 
  Research Service:
  Oral Statement.................................................    28
  Prepared Statement.............................................    30

 
              DRAFT LEGISLATIVE PROPOSAL ON CYBERSECURITY

                              ----------                              


                       Tuesday, December 6, 2011

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Cybersecurity, Infrastructure Protection, 
                                 and Security Technologies,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:15 a.m., in 
Room 311, Cannon House Office Building, Hon. Daniel E. Lungren 
[Chairman of the subcommittee] presiding.
    Present: Representatives Lungren, McCaul, Walberg, Meehan, 
Long, King (ex officio), Clarke, Richardson, Richmond, Keating, 
and Thompson (ex officio).
    Mr. Lungren. The Committee on Homeland Security 
Subcommittee on Cybersecurity, Infrastructure Protection, and 
Security Technologies will come to order. We have been advised 
by top staff on the subcommittee that we may proceed. Ms. 
Clarke, unfortunately, is caught in traffic, which I think a 
lot of people are this morning, but we will proceed.
    The subcommittee is meeting today to examine the 
committee's ``Draft Legislative Proposal on Cybersecurity.'' 
The draft legislation was distributed with the hearing notice, 
although the draft was circulated with Members of the other 
side of the aisle, I believe, in August, and there have been 
very few changes made since that time. I would ask other 
Members if they wish at the conclusion of this hearing to co-
sponsor the draft before us. We intend to drop this immediately 
so that we can begin the process moving this forward.
    Top Government intelligence and military leaders point to 
cybersecurity as the issue that worries them the most, 
primarily because it touches every aspect of American life, 
including our military operations. Tomorrow is December 7, the 
date recalled by CIA Director Leon Panetta in recent testimony 
before Congress about his fear of a cyber Pearl Harbor. The 
growing connectivity between information systems, the internet, 
and our critical infrastructure creates opportunities for 
attackers to disrupt telecommunications, electric power, energy 
pipelines, and our financial networks. We hear every day that 
cyber attacks are escalating around the world, but particularly 
here in the United States where extensive digital networks' 
information systems provide a rich target for thieves and rogue 
nations. Disgruntled employees, hackers, even foreign 
governments, ``are knocking on the door of these systems and 
there have been intrusions.'' There has been a 40 percent spike 
in cyberthreats to Government networks in the last year alone, 
as reported. The Commerce Department estimates that the theft 
of intellectual property, most stolen via electronic means, 
costs $250 billion annually and eliminates approximately 
750,000 U.S. jobs.
    Cybertheft, unfortunately, is no longer our only concern. 
The Stuxnet virus demonstrates the offensive capability to 
attack and incapacitate critical infrastructure. This presents 
a more immediate destructive threat, a digital warhead 
delivered through the internet. Cybersecurity is now recognized 
as a critical component of our National economic and National 
security. Failure to improve our cyberdefenses will expose our 
intellectual property to continued theft and damage to our 
critical infrastructure, putting in jeopardy our future 
economic prosperity. Congress needs to act to improve our 
cyberdefenses by designating the responsible agency and 
Government to coordinate defense of the Government networks.
    We agree with the administration that the Department of 
Homeland Security is the appropriate agency to lead this effort 
and protect our critical information infrastructure, and our 
bill codifies DHS' cyber roles and responsibilities. Further, 
we need to improve our ability to assess cyber risks and 
strengthen cyber standards, generally with help from NIST. We 
should also encourage existing regulators to improve the cyber 
standards for the most critical infrastructure within their 
purview. The cyberthreat must be addressed in partnership with 
the private sector which owns, as we know, most of the 
country's critical infrastructure. This will require 
establishing a true, trusted partnership between Government and 
the private sector. Our objective is to create a partnership of 
equals designed to facilitate the exchange of cyber information 
and intelligence, thereby to accelerate cyberthreat 
identification and remedies. This trusted partnership under our 
bill will be known as the National information-sharing 
organization.
    These changes proposed in our legislation are within our 
committee's jurisdiction and will, we believe, enhance 
cybersecurity of our critical information infrastructure. 
Today's hearing will afford our private sector partners another 
opportunity to weigh in on our approach to protecting critical 
information infrastructure from this escalating cyberthreat.
    We look forward to hearing your comments. I now would 
recognize the Ranking Member of our subcommittee, the 
gentlelady from New York, Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman, and thank 
you for bringing your proposed legislation to our subcommittee. 
I appreciate the diligence that our witnesses have shown in 
analysis of the legislation and want to particularly thank Mr. 
Kosar for his scholarly work and quick turnaround. From my 
perspective, the Department must have sufficient authority to 
make sure that Government and privately-owned critical 
infrastructure install and monitor ample protection for their 
cyber systems, both agency-wide in the Federal Government and 
for identified critical infrastructure that supports the 
economic, social, and security needs of our Nation. Effective 
implementation of that authority will enable DHS to lead by 
example a prerequisite for building credibility and trust with 
privately-owned critical infrastructure.
    In H.R. 174, the Homeland Security Cyber and Physical 
Infrastructure Protection Act of 2011, introduced by Mr. 
Thompson in January of this year, and which I co-sponsor, the 
Department is specifically given major cybersecurity 
responsibility and includes a plan to oversee cybersecurity 
efforts for identified critical infrastructure, much like we 
already do in the CFATS program, which I think is a prudent 
risk-based approach.
    The draft legislation we have before us includes an 
emphasis on voluntary incentives for private companies with 
some narrowly-targeted regulation for critical infrastructure 
industries that are already highly regulated. I think we are 
all looking for a way not to have regulation that duplicates 
what is already being done. Government can ask the critical 
infrastructure systems to improve security only if Government 
is a model leading by example.
    Mr. Chairman, I am glad to see the language of the 
discussion draft does provide some provisions that are broadly 
similar to provisions in H.R. 174 and the White House cyber 
proposal. For example, by increasing the responsibilities of 
the Department for cybersecurity in Federal agencies and 
critical infrastructure, authorizing US-CERT, addressing supply 
chain vulnerabilities, increasing cyber R&D, and providing 
enhanced personnel authorities to improve the cybersecurity 
workforce.
    My concern is two-fold. How can we realistically increase 
our cybersecurity efforts if the House appropriations 
drastically-reduced level of funding is implemented? Second, 
the discussion draft relies on purely voluntary actions and 
establishes a non-profit quasi-Governmental entity, the 
National Information-Sharing Organization, with private and 
public sector members, for the purposes of facilitating 
information exchange, performing collaborative cybersecurity 
R&D, and encouraging non-Federal use of voluntary cybersecurity 
standards.
    I think it is important that we look closely at the details 
of this quasi-Governmental entity to explore the real-life 
implications of such a body and its actions, and how it would 
affect the Department's ability to enhance cybersecurity for 
our Government agencies, our crucial critical infrastructure, 
and ultimately for our citizens.
    So thank you again, Mr. Chairman. These are issues that I 
am anxious to learn more about, and I look forward to the 
testimony today, and I yield back.
    Mr. Lungren. I thank the gentlelady. Other Members of the 
committee are reminded that opening statements may be submitted 
for the record.
    We are pleased to have a very distinguished panel of 
witnesses before us today on this very important topic.
    Dr. Greg Shannon is the chief scientist for the CERT 
Program at Carnegie Mellon University Software Engineering 
Institute. In this role he works with CERT management and staff 
to establish and enhance the program's research visibility, 
initiatives, strategies and policies. Prior to joining CERT, 
Dr. Shannon was the chief scientist at two startups where he 
worked on insider threats, the science of cybersecurity and 
statistical anomaly detection.
    Ms. Cheri McGuire serves as the vice president of Global 
Government Affairs and Cybersecurity Policy, where she leads a 
global team focused on cybersecurity, data integrity, and 
privacy issues. She works extensively with industry and 
Government, including serving as chair of the IT Sector 
Coordinating Council. That is one of the 18 critical sectors 
identified by the President and DHS to work with the Government 
on critical infrastructure, protection, and cybersecurity 
matters. Prior to joining Symantec in 2010, she served as 
director for critical infrastructure and cybersecurity in 
Microsoft's trustworthy computing group.
    Mr. Gregory Nojeim is senior counsel at the Center for 
Democracy and Technology, or CDT. In this capacity he conducts 
much of CDT's work in the areas of National security, 
terrorism, and Fourth Amendment protection. Prior to joining 
CDT in May 2007, he was legislative counsel of the American 
Civil Liberties Union and for 7 years was the associate 
director and chief legislative counsel of the ACLU's Washington 
legislative office.
    Dr. Kevin Kosar is an Analyst in American National 
Government for the Congressional Research Service where he has 
served since 2003. CRS' research portfolio includes 
Congressionally-chartered organizations, the U.S. Postal 
Service classified information policy, Government 
communications and privatization, all obviously non-
controversial areas. He previously testified before Congress in 
April 2010, before the House Oversight and Government Reform 
Committee, regarding the U.S. Postal Service's financial 
condition. A contributing editor at Public Administration 
Review Journal, Dr. Kosar received his Ph.D. in politics from 
New York University.
    As you all know, your printed texts will be made a part of 
the record in their entirety. You are each recognized for 5 
minutes to give us a summary of your testimony, and at the 
conclusion of which we will go in order for questions.
    So the Chairman will recognize Dr. Shannon to testify.

 STATEMENT OF GREGORY E. SHANNON, CHIEF SCIENTIST FOR COMPUTER 
   EMERGENCY READINESS TEAM, SOFTWARE ENGINEERING INSTITUTE, 
                   CARNEGIE MELLON UNIVERSITY

    Mr. Shannon. Thank you Chairman Lungren, Ranking Member 
Clarke, and subcommittee Members. I am honored to testify 
before you again now on this important legislation. I am the 
chief scientist for the CERT cybersecurity program at the 
Software Engineering Institute which is a DOD FFRDEC, operated 
by Carnegie Mellon. The CERT Program's Associated Coordination 
Center was created in 1988 in response to the moratorium 
incident, and we have grown into a National asset in 
cybersecurity with 250 staff supporting the cybersecurity needs 
of the DOD, DHS, and others. CERT has been and continues to be 
a key partner with US-CERT in its important work.
    As we talk today about the draft legislation and in 
particular the concept of a National Information-Sharing 
Organization, or NISO, please consider the role of trust in 
sharing sensitive information, especially the process of 
establishing trust. Consider for a moment, if you will, your 
own personal experience in trusting--consider for a moment, if 
you will, your own personal experience in trusted sharing of 
sensitive information with an organization such as your last 
visit to the doctor, a parent-teacher conference, or the voting 
booth. Your willingness to share sensitive information was 
probably driven by the degree to which you trusted that 
organization and derived benefit from that organization. That 
trust took time to establish and is expressed in cultural 
norms, laws, relationships, processes, et cetera. That trust 
wasn't legislated, though it often is assisted by a 
legislation. So it is likewise with sensitive cybersecurity 
information provided by private entities to a NISO.
    I appreciate the frustrations with the current range and 
pace of information sharing. We all wish for more, better, 
sooner. Our view is that DHS is making great progress and this 
legislation should augment that work. I endorse the committee's 
proposal to establish a non-profit private entity to serve as a 
National clearinghouse for the exchange of cyberthreat 
information. We believe that a third-party, honest broker 
facilitator for the disclosure and dissemination of 
cybersecurity knowledge creates an excellent environment where 
all participants, both Government and non-Government, almost 
readily share sensitive information. Like with the conflict of 
a working group, trusted relationships are a critical success 
factor for NISO and reliable trust takes time to establish, 
especially that scale.
    The type of information that organizations are being asked 
to share with each other in the U.S. Government is sensitive, 
and sharing such information requires trusted relationships 
established and tested over time.
    Another critical success factor is data value, in addition 
to protections and policy that we discuss in our testimony. The 
data information and knowledge that the NISO collects and 
shares must be distinct and not readily available; else there 
is little or no incentive to participate. Value results from 
not only access to unique data but also from analysis that 
enables reactive and proactive responses by participants. Like 
the CDC, the Centers for Disease Control, the NISO must have 
distinct capabilities that make it the go-to organization for 
cyberthreat awareness for private entities.
    Federally-enabled sharing of cybersecurity information is 
evolving. Many of the existing sharing relationships are shown 
in diagram 2 of my written testimony. The jumbledness of the 
links demonstrates that a NISO should complement sharing, 
clarify roles and responsibilities and, as appropriate, help 
consolidate those roles and responsibilities. We don't need yet 
another loosely mandated cybersecurity information-sharing 
organization, and NISO can be a step in the right direction, 
especially in helping to clarify interactions.
    Since we are discussing data, information, and knowledge, 
let's also talk about the importance of operationally and 
scientifically valid data, especially in the context of 
research, development, acquisition, and assessment. This 
applies to both sections 2 and 4 of the draft legislation.
    Given the preponderance of threats, standards, 
technologies, products, best practices, et cetera, in 
cybersecurity, I strongly encourage the committee to include 
language in the legislation that emphasizes the need for 
operationally and scientifically valid, scientifically sound 
capabilities. Not every best practice scales well and not every 
technology has scientifically sound evidence of its efficacy 
and its limitations. Such legislation language would create an 
important positive demand for well-formed pilots and 
experiments that produce broadly meaningful data and results. 
This would stimulate the development and maturation of ever-
improving methodologies for pilot projects, assessments, 
experiments, and research.
    In conclusion, I look forward to working with the 
subcommittee to improve the timely sharing of actionable 
cybersecurity information that is operationally and 
scientifically valid. Thank you.
    [The statement of Mr. Shannon follows:]
                Prepared Statement of Gregory E. Shannon
                            December 6, 2011
    Chairman Lungren, Ranking Member Clarke, and other distinguished 
Members of the subcommittee, thank you for the opportunity to testify; 
it is my pleasure to discuss your draft legislation.
                              about cert
    The CERT Program is part of the Carnegie Mellon University Software 
Engineering Institute (SEI), a Department of Defense Federally-funded 
research and development center (FFRDC) located on the Carnegie Mellon 
campus in Pittsburgh, Pennsylvania (www.sei.cmu.edu).
    The CERT Program (www.cert.org) has evolved from the first computer 
emergency response team, created by the SEI at the request of the 
Defense Advanced Research Projects Agency (DARPA), in 1988 as a direct 
response to the Morris worm incident. The CERT Program continues to 
research, develop, and promote the use of appropriate technology and 
systems management practices to resist attacks on networked systems, 
limit damage, restore continuity of critical systems services, and 
investigate methods and root causes. CERT works both to mitigate cyber 
risks and to facilitate local, National, and international cyber 
incident responses. Over the past 23 years, CERT has led efforts to 
establish over 200 computer security incident response teams (CSIRTs) 
around the world--including the Department of Homeland Security (DHS) 
US-CERT. We have a proven track record of success in transitioning 
research and technology to those who can implement it on a National 
scale.
    I am Dr. Greg Shannon, the Chief Scientist for the CERT Program, 
where I lead efforts to sustain and broaden CERT's strategic research, 
development, and policy initiatives.
                               testimony
    I first want to ensure that the committee appreciates the 
exceptional work that is under way at the Department of Homeland 
Security (DHS) in the area of information sharing. I understand 
frustrations with the current range and pace of information sharing, 
but I assure you that DHS is making great progress. The type of 
information that organizations are being asked to share with each other 
and the U.S. Government is sensitive, and sharing such information 
requires trusted relationships, established and tested over time. 
Established trust is a key success factor for such programs, and 
reliable trust takes time.
    Working from the objectives of the current draft legislation, 
drawing on CERT's 23 years of experience, and using concepts from 
public health models,\1\ I will discuss how to leverage current 
efforts, the strengths and challenges of both the current efforts and 
the legislation, and specific recommendations. The mission of our FFRDC 
is to improve the state of the practice, so I will focus on what should 
be done versus who should be doing it.
---------------------------------------------------------------------------
    \1\ I am drawing on ideas and language in the forthcoming report 
from the EastWest Institute, Using a Public Health Model to Support 
Collective Action to Improve Global Internet Health, that is being 
written by an international private-sector-led working group.
---------------------------------------------------------------------------
    I endorse the committee's proposal to position a non-profit private 
entity to serve as a National clearinghouse for the exchange of cyber 
threat information--the NISO (National Information Sharing 
Organization). We believe that a ``third-party, honest broker'' 
facilitator for the disclosure and dissemination of cyber-security 
intelligence creates a superior and more productive environment where 
all participants, both Government and non-Government, more readily 
share sensitive information. Moreover, it is imperative that the 
designated organization is making decisions for the greater good based 
on the highest quality data, openly acquired and objectively analyzed.
    Many of the goals proposed for the NISO have parallels to the 
activities of the Centers for Disease Control and Prevention (CDC)--the 
fact that it is a Federal agency notwithstanding. As the Nation's 
leader in health, monitoring, prevention, and preparedness, the CDC 
works to monitor and prevent outbreaks, implement prevention 
strategies, and maintain National statistics--it is a central 
clearinghouse for information with response capabilities. Crucially, it 
does so by working with partners throughout the Nation and the world to 
collaboratively create the expertise, information, and tools that 
people and communities need to protect themselves.
    We envision the NISO, like the CDC, filling a cyber information 
leadership role while interacting with existing groups. The NISO, run 
by a non-profit would have in-house functions, maintain a common 
operating picture, and the 24/7 help desk, but its biggest role will be 
to interface with present-day efforts and improve communications and 
collaboration. I want to ensure the committee recognizes the on-going 
work within established frameworks and discuss the benefits of 
utilizing progress already made. To add yet another institution could 
in practice derail the current advancements and delay the committee's 
ultimate goal of timely information sharing. I suggest that instead of 
creating a duplicative organization, the committee charge the NISO with 
being the single point of interaction for those successful efforts and, 
when appropriate, consolidate work under the NISO.
    I share and understand frustration that capabilities for cyber 
threat information sharing are not being created quickly enough. Human 
nature reasons that adding people to a late or slow project will 
accelerate performance; however, Brooks's Law, also known as the 
``mythical man-month,'' suggests otherwise. Based on his experiences at 
IBM, Dr. Fred Brooks states: ``adding manpower to a late software 
project makes it later.''\2\ Brooks found that there is ``ramp-up'' 
time to adding staff to a project--they aren't productive immediately, 
and their education diverts resources from the rest of the team. 
Furthermore, a new player sharply increases communication costs. As you 
add additional ``reporting'' bodies, confusion as to who should be told 
what and when is only exacerbated. Everyone working on the same task 
needs stay synchronized, so as more people are added, they spend more 
time trying to find out what everyone else is doing. Furthermore, Dr. 
Brooks famously said, ``Nine women can't make a baby in one month,'' 
implying that regardless of the manpower, some undertakings just take 
time. For information sharing, building the necessary trust 
relationships cannot be rushed.
---------------------------------------------------------------------------
    \2\ Frederick P. Brooks, Jr. ``The Mythical Man-Month.'' 1995 
[1975]. Addison-Wesley.
---------------------------------------------------------------------------
    To better understand our vision, I have mapped out how a NISO 
organization might look--see Diagram 1. In doing so, we made 
assumptions about the overall goals of the organization based on the 
stated and implied objectives, and I encourage the committee to think 
carefully about what problems they want the NISO to solve and how the 
structure and authority of the NISO helps solve those problems. Using 
CERT's experience we have listed what we see as the necessary 
capabilities and enablers for a successful NISO.
    There are four critical success factors for such an entity to 
accomplish the objectives set out: Data of value, trust, protections, 
and policy. First, for the NISO to have success, it absolutely must be 
able both to share and facilitate the sharing of timely, actionable 
information. The existence of the former will enable the latter. 
Furthermore, that which the NISO shares must be distinct and not 
readily attainable by participating organizations. Otherwise there is 
little or no incentive to participate. The value of NISO's information 
would come from either being the exclusive distributor of an insight 
through novel aggregations or applying a new analysis technique to 
unique, participant-shared, or public information. Providing valuable 
data is not only the result of having access to unique data, but also 
the ability to fundamentally analyze the data differently to provide 
real, actionable, intelligence from which best practices are derived. 
For the NISO to truly serve a significant and useful role, the timely 
and actionable information they disseminate to participating 
organizations must be reactive as well as proactive, such as best 
practices. The promise of exclusive information, such as fused analysis 
of network data, network traffic, or forensic artifacts, will be the 
value added that NISO participants need to justify their participation. 
This information will also differentiate the suggested common operating 
picture (COP) from the several entities that offer situational 
awareness, and bring the necessary added value to ensure participant 
involvement. Furthermore, the COP should strive to be able to 
fundamentally analyze the data differently, further differentiating the 
NISO from similar organizations and enticing participation. This 
function would draw nicely from the anticipated collaborative research 
and development. Like the CDC, the NISO needs distinctive capabilities 
that make it the ``go-to'' organization for cyber threat awareness.
    Next, I want to stress to the committee the importance of trust to 
facilitate meaningful exchanges. The need for trust is yet another 
reason that building on existing efforts is important. While there may 
be frustrations with the current range and pace of information sharing, 
you cannot legislate trust, and any new organization needs time to 
build the necessary relationships for meaningful communications. I 
believe the committee's intentions are best served by building upon the 
existing rapports.
    Last, it is imperative that solid protection mechanisms and safe 
harbors be in place for the designated organization and its 
participants for unencumbered information sharing and analytical 
product delivery to occur. This will likely require both legislative 
updates and policy changes, which must be done with the utmost care to 
privacy and civil liberties. This is an important yet difficult task, 
and I commend the committee for beginning the dialogue.
    Moving on to the information-sharing objective of the NISO 
organization: As you can see from Diagram 2 \3\ (NISO relationships 
with existing efforts), there are currently many organizations that 
``specialize'' in information sharing. Several Government agencies have 
information-sharing entities--not just DHS--and not to mention the 
hundreds of private-sector and academic entities, some quasi-
Government, that all claim to be centers where cyber information can be 
shared. Without a recognized body, coordinated with United States 
Government (USG) efforts, private-sector organizations are confused 
about with whom and under what circumstances they should engage all of 
these other efforts. This fragmentation results in sub-optimal 
dissemination of timely information. NISO would serve as the National 
cyber-security aggregation point and coordination center endorsed by 
and coordinating with the Federal Government. We advocate establishing 
a single point of interaction, to be run by the designated non-profit 
entity, while collaborating and working with the mechanisms and 
organizations already in place. For certain operational tasks, it might 
make sense to re-brand current efforts and place them under the NISO, 
all the while ensuring we are building on the successes and not 
starting over.
---------------------------------------------------------------------------
    \3\ Caveat: The diagram is in no way truly comprehensive of all the 
current organizations that claim to be cyber information-sharing 
centers. These are simply some of the most prominent entities. 
Furthermore the relationships represented in the diagram are derived 
from public mission statements and budget documents and are meant to be 
illustrative, not comprehensive.
---------------------------------------------------------------------------
    For the sake of clarity I will run through a real-world example of 
a cyber threat and how a NISO, organized as suggested above, would have 
had a positive impact on the situation. Let us take the Conficker worm, 
first discovered in early November 2008, which used flaws in Microsoft 
Windows software to infect millions of computers. Realizing a 
collaborative effort was needed to combat the advanced malware 
techniques behind Conficker, an industry group was serendipitously 
formed during an ICANN conference in February 2009. While the Conficker 
working group (CWG) had many successes, and several similar working 
groups have since formed using the same model, the threat clearly 
demonstrated gaps in our National capabilities. First and foremost, the 
ramp-up delay: The effort expended to form the group and time spent 
finding the right skill sets, capabilities, and authorities before any 
work could be done on the problem at hand. Had there been an 
established and trusted entity, such as a NISO, Microsoft could have 
approached them and begun combating the problem much sooner. There are 
other gaps the CWG has conceded they were unable to fill, such as the 
need for a dedicated project manager, administrative support, testing 
facilities, and a more coordinated approach with the anti-malware tool 
vendors--roles that a NISO could clearly execute. Likewise, there are 
lessons to be learned from why the group was successful. The CWG has 
attributed their success to trust. The operational members of the group 
all knew each other, had previously worked with each other, and had 
confidence that all members would a good job, follow through with their 
given tasks, and do no intentional harm. That trust was the glue that 
enabled a group of colleagues to form an effective collaboration that 
was largely able to contain the worm. Their success corroborates the 
model of a third-party organization working with existing functions and 
building on already established relationships.\4\
---------------------------------------------------------------------------
    \4\ Nazario, Jose. ``Conficker Working Group Overview.'' Institute 
for Information Infrastructure Protection (I3P). 12 October 2011. Web. 
http://www.thei3p.org/docs/events/cybercprfiles/
NAZARIOI3PCONFICKER.pdf.
---------------------------------------------------------------------------
    I encourage the committee to require that the NISO maintain a 
National repository of malware for research purposes. Currently there 
are several organizations that have malware repositories but they are 
seen as a competitive advantage and rarely shared. Access to such a 
repository would enable cyber research to reach new levels. Currently 
researchers work with only small pieces of the puzzle, resulting in 
reactive research, and impeding research that can look more globally at 
the problem. Again, if we use the public health model, imagine if 
cancer researchers were only told that cancer affects thousands of 
people who die every year, and the data was broken down by neither type 
nor outcome. Such data would make it impossible to make well-informed 
decisions about priorities for response as well as research. Armed with 
a well-maintained malware repository, with appropriate controls on 
access, the NISO could provide more effective methods for basic cyber 
hygiene.
    Finally, I want to touch upon the bill's research and development 
objectives. Given the preponderance of threats, standards, 
technologies, products, best practices, etc. in cybersecurity, I 
strongly encourage the committee to include language in the legislation 
that emphasizes the need for operationally and scientifically sound 
capabilities. Not every best practice scales well, and not every 
technology has scientifically sound evidence of its efficacy and its 
limitations. The academic research community increasingly recognizes 
the need for such sound methods as evidenced by workshops on Cyber 
Security Experimentation and Testing (CSET)\5\ and Learning from 
Authoritative Security Experiment Results (LASER).\6\ Such legislation 
language would create an important positive demand for well-formed 
pilots and experiments that produce broadly meaningful data and 
results. This would stimulate the development and maturation of ever-
improving methodologies for pilot projects, assessments, experiments, 
and research.
---------------------------------------------------------------------------
    \5\ Established 2008: http://www.usenix.org/events/cset12/
index.html.
    \6\ New: Learning from Authoritative Security Experiment Results 
(LASER), http://www.laser-workshop.org.
---------------------------------------------------------------------------
    For example, in the draft language, phrases such as the following 
are used:
  <bullet> Develop and conduct risk assessments;
  <bullet> Comprehensive assessment techniques;
  <bullet> Foster the development of essential information security 
        technologies;
  <bullet> Facilitate the adoption of new cybersecurity technologies 
        and practices;
  <bullet> Guidelines for making information systems more secure at a 
        fundamental level;
  <bullet> Catalogue of risk-based performance standards;
  <bullet> Cybersecurity research and development.
    I recommend adding clarifications that such artifacts and 
activities are:
  <bullet> Operationally valid and scalable in situ;
  <bullet> Scientifically, theoretically, and/or experimentally valid 
        or sound;
  <bullet> Evidence-based capabilities and limitations.
    Participants can further facilitate effective security by 
authorizing the NISO to support creation of and access to high-fidelity 
data sets to qualified researchers, of course with appropriate access 
controls. Access to such data is essential for creating and evaluating 
critical technologies and best practices, especially to understand 
important limitations.
    To finish, I want to applaud the committee's foresight in combining 
research functions with operational objectives in the NISO design. It 
is an ambitious and difficult task, and consequently there are 
currently few successful mixed organizations. Nevertheless, combining 
research and operations can and does have many benefits. I see the 
SEI's CERT Program as a viable model for successfully bringing together 
research and operations to add value to both communities. At CERT, our 
strategy is to create usable technologies, apply them to real problems, 
and amplify their impact by accelerating broad adoption. Having one 
foot in operations gives us the insight into real-world problems and 
ensures our research has real-world applications. Moreover, having 
operational access gives us the opportunity to test our research and 
make the necessary improvements for a successful and scalable 
transition.
    Thank you for the opportunity to comment on this important 
legislation and leverage CERT's 23 years of experience in the area of 
information sharing.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Lungren. Thank you very much.
    Ms. McGuire.

   STATEMENT OF CHERI F. MC GUIRE, VICE PRESIDENT OF GLOBAL 
     GOVERNMENT AFFAIRS AND CYBERSECURITY POLICY, SYMANTEC 
                          CORPORATION

    Ms. McGuire. Chairman Lungren, Ranking Member Clarke, and 
distinguished Members of the subcommittee, thank you for the 
opportunity to testify today on behalf of Symantec Corporation 
and the Business Software Alliance. In addition to my role at 
Symantec Corporation, I also serve as the chair of the IT 
Sector Coordinating Council, as well as a member of the board 
of Information Technology and Information Sharing and Analysis 
Center or the IT ISAC. I also serve as the principal IT sector 
representative to the Partnership for Critical Infrastructure 
Security, which is the cross-sector cyber working group, a 
cross-sector critical infrastructure working group that works 
most closely with the Department of Homeland Security and other 
agencies on infrastructure protection matters.
    As the world's information security leader, Symantec 
maintains 11 security response centers globally and we utilize 
over 240,000 attack sensors in more than 200 countries to track 
malicious activity 24 hours a day, 365 days a year.
    As you all are too well aware, our Nation's critical 
infrastructure systems are constantly under attack. In our 
latest internet security threat report, we observed a 19 
percent year-over-year increase in threat activity and 
identified more than 286 million unique variations of malware 
alone. In addition, based on data in our 2011 Norton cybercrime 
survey we estimated that 431 million cybercrime victims have 
been impacted globally with cyber attacks in the past year. At 
an annual combined cost of $388 billion globally, based on both 
financial losses and the lost time to recover from attacks, 
cybercrime costs us more today than the global black market for 
marijuana, cocaine, and heroin combined.
    Symantec has been a long-time proponent for improving our 
Nation's cybersecurity. As a member of the Business Software 
Alliance, we were part of a coalition that offered a white 
paper on improving our Nation's cybersecurity through public-
private partnerships. This paper laid out core principles for 
cybersecurity policy. I would like to submit it for the record 
as part of my testimony today.
    As part of these core principles, first we must promote and 
improve information sharing, which is often referred to as the 
key to combating cyberthreats. However, we also must recognize 
that information sharing is not an end goal but rather is a 
tool to providing situational awareness or visibility so that 
appropriate protective and risk mitigation actions may be 
taken.
    Second, effective and efficient cybersecurity cannot be 
accomplished under a one-size-fits-all regime. For example, a 
small mom-and-pop convenience store should not be required to 
implement the same policies or standards as a nuclear facility. 
Using a risk-based approach provides a mechanism for the 
Government and industry to assess risk and expend the necessary 
resources on areas that are truly needed.
    Third, any proposed legislation must also promote, not 
stifle, innovation. Cybersecurity policy should maximize the 
ability of organizations to develop and adopt the widest 
possible choice of cutting-edge cybersecurity solutions.
    With regard to roles of industry and Government in 
cybersecurity, the private sector's role is clearly defined to 
operate and protect their networks. Industry must continually 
tune their security environments to manage the level of risk 
associated with the information they are protecting, while at 
the same time working within the current economic pressures of 
doing more with less.
    Further, industry must move from a device-centric security 
model to one that is identity- and information-centric. This 
new security paradigm of data-centricity is not only about 
protection of devices, but more importantly is about protecting 
the information. The Government, of course, plays an important 
role in cybersecurity. Government can create incentives to 
encourage the adoption of cybersecurity technologies, it can 
assist with education, training, and awareness to empower 
users, it can serve as a facilitator for preparedness by 
sponsoring exercises, and it can share actionable information 
with industry to improve cybersecurity situational awareness 
and the ability to respond.
    Symantec was very pleased to review the draft bill that has 
been circulated by you, Mr. Chairman. The draft legislation we 
believe is a positive step forward in developing a National 
cybersecurity policy that helps fulfill the core principles 
that I have just discussed.
    First, we believe there needs to be improved coordination 
between and among public and private entities. Thus we are very 
supportive of the bill's designation of a single entity as the 
National cybersecurity authority.
    Second, we support the bill's inclusion of a risk-based 
approach to cybersecurity so that we do not overburden small 
businesses with unnecessary security requirements, while still 
ensuring that our critical infrastructures are protected.
    We are also supportive of using existing internationally-
recognized performance standards, including those developed by 
NIST. We are also pleased that the legislation takes into 
account how our National cybersecurity policy will enhance 
economic prosperity. Keeping this goal in mind will help to 
prevent burdensome regulations, and it also appropriately 
emphasizes the need to maximize market-based incentives and 
public-private partnerships.
    Finally, we support the bill's emphasis on promoting 
information sharing. The bill clearly articulates that the 
Government must share real-time actionable information with 
critical infrastructure, owners, and operators. The mandate 
within the structure of the proposed NISO that the Government 
must share information is a strong step in the right direction. 
However, some questions still remain about how we will continue 
to utilize the existing entities under the proposed framework. 
We believe that it is important to give the significant time 
and resources that companies have invested in the sector 
coordinating councils and the ISACs the appropriate venue to 
participate.
    In conclusion, recognizing that there is no silver bullet 
for cybersecurity as a first step, but we really do have to 
shift this dialogue from solving the cybersecurity problem to 
managing the risks associated with it. We welcome the 
opportunity to answer any questions you may have at this time. 
Thank you.
    [The statement of Ms. McGuire follows:]
                 Prepared Statement of Cheri F. McGuire
                            December 6, 2011
                              introduction
    Chairman Lungren, Ranking Member Clarke and distinguished Members 
of the subcommittee, thank you for the opportunity to testify today on 
behalf of Symantec Corporation \1\ and the Business Software Alliance 
(BSA) \2\ as you consider this very important issue.
---------------------------------------------------------------------------
    \1\ Symantec is a global leader in providing security, storage, and 
systems management solutions to help consumers and organizations secure 
and manage their information-driven world. Our software and services 
protect against more risks at more points, more completely and 
efficiently, enabling confidence wherever information is used or 
stored. More information is available at www.symantec.com.
    \2\ The Business Software Alliance (www.bsa.org) is the leading 
global advocate for the software industry. It is an association of 
nearly 100 world-class companies that invest billions of dollars 
annually to create software solutions that spark the economy and 
improve modern life. Through international government relations, 
intellectual property enforcement, and educational activities, BSA 
expands the horizons of the digital world and builds trust and 
confidence in the new technologies driving it forward.
---------------------------------------------------------------------------
    My name is Cheri McGuire and I am the vice president of global 
government affairs and cybersecurity policy at Symantec Corporation. I 
also serve as the current chair of the Information Technology (IT) 
Sector Coordinating Council (SCC), which is one of 18 critical sectors 
identified by the President and the U.S. Department of Homeland 
Security (DHS) to work in partnership with the Government on critical 
infrastructure protection (CIP) and cybersecurity policy and 
operational matters. I am also a member of the board for the IT 
Information Sharing and Analysis Center (ISAC), and serve as the 
principal IT Sector representative to the Partnership for Critical 
Infrastructure Security (PCIS). Prior to joining Symantec in 2010, I 
served as Director for Critical Infrastructure and Cybersecurity in 
Microsoft's Trustworthy Computing Group, and before that, at the U.S. 
Department of Homeland Security (DHS), where I led the National Cyber 
Security Division and the U.S. Computer Emergency Readiness Team (US-
CERT).
    Symantec is the world's information security leader, with over 25 
years of experience in developing internet security technology. Today, 
we protect more people and businesses from more on-line threats than 
anyone in the world. We maintain 11 Security Response Centers globally 
and utilize over 240,000 attack sensors in more than 200 countries to 
track malicious activity 24 hours a day, 365 days a year. Our best-in-
class Global Intelligence Network allows us to capture world-wide 
security intelligence data that gives our analysts an unparalleled view 
of the entire internet threat landscape, including emerging cyber 
attack trends, malicious code activity, phishing, and spam. In short, 
if there is a class of threat on the internet, Symantec knows about it.
    At Symantec, we are committed to assuring the security, 
availability, and integrity of our customers' information and the 
protection of critical infrastructure is a top priority for us. We 
believe that CIP is an essential element of a resilient and secure 
Nation. From water systems to computer networks, power grids to 
cellular phone towers, risks to critical infrastructure can result from 
a complex combination of threats and hazards, including terrorist 
attacks, accidents, and natural disasters.
    We welcome the opportunity to provide comments as the committee 
continues its important efforts to bolster the state of cybersecurity 
in the United States and abroad. In my testimony today, I will provide 
the subcommittee with:
  <bullet> our latest analysis of the threat landscape as detailed in 
        the Symantec Internet Security Threat Report Volume XVI (ISTR 
        XVI) and in the 2011 Norton Cybercrime Report;
  <bullet> principles for improving our Nation's cybersecurity;
  <bullet> appropriate roles of industry and Government in 
        cybersecurity; and
  <bullet> our views on your draft legislative proposal for 
        cybersecurity.
                            threat landscape
    Today, we rely on technology for virtually everything we do, from 
driving to and from work, to mobile banking, to securing our most 
critical systems that protect our Nation such as our nuclear plants and 
electric grid. Our Nation's critical infrastructure systems are 
constantly under attack, and the methods for attacking us are 
constantly evolving and becoming more sophisticated with each passing 
minute. It is our goal to ensure that we are thinking ten steps ahead 
of the attackers. Looking at the current threat landscape is not 
enough--we must also keep our eyes on the horizon for evolving trends.
    In the latest Symantec Internet Security Threat Report (ISTR) 
Volume XVI, we observed significant changes to the threat landscape in 
2010.\3\ The volume and sophistication of threat activity increased 
more than 19 percent over 2009, with Symantec identifying more than 286 
million unique variations of malicious software or malware. These 
included threats to social networking sites and users, mobile devices, 
and phishing.
---------------------------------------------------------------------------
    \3\ Symantec Internet Security Threat Report XVI, April 2011. 
http://www.symantec.com/business/threatreport/index.jsp.
---------------------------------------------------------------------------
    However, to understand the evolving threat landscape, we first need 
to look at who is behind the vast array of cyber attacks that we are 
seeing today. Attacks originate from a range of individuals and 
organizations, with a wide variety of motivations and intended 
consequences. Attackers can include hackers (both individual and 
organized gangs), cybercriminals (from petty operators to organized 
syndicates), cyber spies (industrial and nation-state), and 
``hacktivists'' (with a specific political or social agenda). 
Consequences can also take many forms, from stealing resources and 
information, to extorting money, to outright destruction of information 
systems.
    It is also important to recognize that attackers have no boundaries 
when it comes to their intended victims. All organizations and 
individuals are potential targets. Corporate enterprises are often the 
object of targeted attacks not only to steal customer data and 
intellectual property, but also to disrupt business processes and 
commerce. Small businesses are often less resilient and the impacts of 
stolen bank accounts and business disruption can be catastrophic in a 
very short time frame. In addition, end-users or consumers are 
confronted with the financial and disruptive impacts of identity theft, 
scams, and system clean-ups, not to mention the lost productivity and 
frustration of restoring their accounts. Finally, Governments are most 
often the victims of cyber sabotage, cyber espionage, and hactivism, 
all of which can have significant National security implications.
    Over the years, we have observed an ominous change that has swept 
across the internet. The threat landscape once dominated by worms and 
viruses developed by irresponsible hackers is now being ruled by a new 
breed of cybercriminals. As more people have access to technology, 
criminals leverage it for criminal purposes. In October, we released 
our 2011 Norton Cybercrime Report where we examined on-line behavior in 
24 countries and interviewed nearly 20,000 consumers.\4\ We calculated 
the cost of global cybercrime at $114 billion annually. We also 
calculated that lost time due to recovery and impact on personal lives 
was an additional $274 billion world-wide. Further, we found that more 
than two-thirds of on-line adults (69 percent) reported having been a 
victim of cybercrime in their lifetime. Every second, 14 adults become 
a victim of cybercrime, resulting in more than 1 million cybercrime 
victims every day.
---------------------------------------------------------------------------
    \4\ 2011 Norton Cybercrime Report. www.norton.com/cybercrimereport
---------------------------------------------------------------------------
    With an estimated 431 million adult victims globally in the past 
year, and at an annual combined cost of $388 billion globally based on 
financial losses and time lost, cybercrime costs are significantly more 
than the global black market in marijuana, cocaine, and heroin 
combined--which is estimated at $288 billion per year.
    It is not just our computers that we need to secure from 
cybercriminals. Today, a high percentage of consumers use their mobile 
phones to conduct nearly every aspect of their life, from basic 
communication to on-line shopping to mobile banking. Most of these 
phones are not secure. The Norton Cybercrime Report revealed that 10 
percent of adults on-line have experienced cybercrime on their mobile 
phone. Further, we reported in the Symantec ISTR XVI that there were 42 
percent more mobile vulnerabilities in 2010 compared to 2009--a sign 
that cybercriminals are turning their efforts to the mobile space.
    Recently, there has been an up-swing in press reports regarding 
cyber attacks and the ``advanced persistent threat'' or APT. While APT 
is one of the most overused terms in the security industry today, it is 
nevertheless something to be taken seriously. APTs covertly infiltrate 
systems and hide and wait for opportune moments to steal information or 
damage systems.
    The APT is not one entity; rather it is many different and 
independent entities, with a tremendous range of motivations. Some of 
these motivations include financial gain, exfiltration (or theft) of 
sensitive and personal information, cyber espionage, and a new turn in 
the last 18 months, cyber sabotage as exemplified by the Stuxnet 
malware.
    Another trait of the APT is to infiltrate a system, enterprise, or 
organization, but not immediately execute the ultimate mission. Often 
the APT will lie in wait, gaining intelligence, observing patterns, and 
use this information to glean information to further refine the 
ultimate attack.
    The threats we are seeing are not new, they are just newly 
packaged. However, while the attacks are not new, they are becoming 
more targeted and the monetary losses have grown exponentially. Most 
indicators point to future cyber attacks as being more severe, more 
complex, and more difficult to prevent and address than current 
threats. Thus, it is even more vital that we have a cybersecurity 
policy that is flexible, fosters innovation, and enables us to stay 
ahead of those with bad intentions.
          principles for improving our nation's cybersecurity
    Symantec has been a long-time proponent for improving our Nation's 
cybersecurity. We have testified before Congress on the issue each of 
the last 4 years and have been a key stakeholder in the numerous 
legislative efforts and public-private partnerships to improve cyber 
research and development, cyber education, security standard setting, 
CIP, and more. We have also participated in various multi-industry 
efforts aimed at improving our cybersecurity policies. For example, as 
a member of the Business Software Alliance, we were part of a large 
coalition of cybersecurity stakeholders that authored a white paper on 
``Improving our Nation's Cybersecurity through Public Private 
Partnerships.''\5\ This paper laid out a number of principles, and we 
believe any cybersecurity legislation should stay true to the core 
principles associated with these key elements:
---------------------------------------------------------------------------
    \5\ March 8, 2011. ``Improving our Nation's Cybersecurity through 
Public Private Partnerships: A White Paper.'' http://www.bsa.org//
media/Files/Policy/Security/CyberSecure/
cybersecurity_white_paper_publicprivatepartnership.ashx.
---------------------------------------------------------------------------
  <bullet> Risk management standards, assessment, and incentives;
  <bullet> Incident management;
  <bullet> Information sharing and privacy;
  <bullet> International engagement;
  <bullet> Supply chain security;
  <bullet> Innovation and research and development (R&D); and,
  <bullet> Education and awareness.
    For the purposes of my testimony, I will discuss a few of these in 
the context of your draft legislative proposal.
Information Sharing
    Any cybersecurity legislation must promote and improve information 
sharing. Information sharing is often referred to as the key to 
combating cyber threats. However, we must first recognize that 
information sharing is not an end goal, but rather a tool or mechanism 
to provide situational awareness, or visibility, so that appropriate 
protective and risk mitigation actions may be taken. In order for 
information sharing to be effective, information must be shared in a 
timely manner, must be shared with the right people or organizations, 
and must be shared with the understanding that so long as an entity 
shares information in good faith, it will not be faced with legal 
liability for sharing the information.
    In order to achieve truly effective information sharing, there must 
be increased coordination between and among industry and Government. In 
my roles both inside and outside of the Government, and more recently 
as Chair of the IT Sector Coordinating Council and on the Board of the 
IT-ISAC, I have seen first-hand both successes and challenges in our 
current public-private partnership with respect to information sharing.
    In particular, cybersecurity exercises have been one of the most 
successful public-private partnership and information-sharing 
initiatives to date. The level of engagement and resources brought to 
bear from the Government and industry to jointly plan, develop 
scenarios, define information-sharing processes, and execute the 
exercises has been unprecedented. The lessons learned from these 
exercises have been invaluable to both industry and Government. 
However, much work still needs to be done to address recommended 
actions associated with information sharing and realize improvements.
    One way to improve information sharing is to provide the Government 
with the proper tools and authority to effectively disseminate 
information. I have seen too many instances of the Government releasing 
information on cyber threats, days and sometimes weeks, after the 
threat has been identified. In many of these cases, by the time the 
Government releases the information, it has little use because the 
private sector has already identified and taken actions to mitigate the 
threat. There is no single solution that will eliminate these delays, 
but passing legislation that sends a clear message to the Government 
that sharing information with the private sector is both a priority and 
necessary to protect our infrastructure from cyber attacks will go a 
long way.
    At Symantec, we also support an incentive-based approach to 
information sharing. There is no doubt that businesses can gain a 
competitive advantage by not disclosing information to their 
competitors. However, a well-incentivized program of collaboration can 
help offset the disadvantages and keep the information flowing freely.
    At the same time, Government does have an important role in 
fostering the effectiveness of information sharing. For example, 
Government can increase voluntary information sharing through tax 
incentives, grant funding, and streamlining of regulatory procedures. 
We also need to address policies that discourage businesses who would 
be willing to share information but choose not to because of fear of 
prosecution. Therefore, liability protections are necessary to improve 
bi-directional information sharing.
    As with any partnership, information sharing is founded upon and 
enabled by trust. That trust is weakened when Government information-
sharing mandates are imposed on industry. Enhanced self-interest and a 
flexible approach are more likely to improve information sharing than 
Government mandates to private industry.
Risk Assessment
    Effective and efficient cybersecurity cannot be accomplished under 
a ``one-size-fits-all'' regime. Each system within our critical 
infrastructure and each cyber threat pose different risks. For example, 
a small mom-and-pop convenience store should not be required to 
implement the same policies or standards as a nuclear facility. Using a 
risk-based approach, as outlined in the National Infrastructure 
Protection Plan (NIPP),\6\ provides a mechanism for the Government and 
industry to assess risk and expend the necessary resources on areas 
that truly need it, rather than spending equal amounts of resources on 
both high- and low-risk targets. Thus, it is imperative that any 
cybersecurity legislation use a risk-based analysis system rather than 
a one-size-fits-all regime. Leveraging existing regulatory and 
voluntary regimes to encourage cybersecurity risk assessments and the 
adoption of standards should be considered first in any proposals.
---------------------------------------------------------------------------
    \6\ National Infrastructure Protection Plan, http://www.dhs.gov/
xlibrary/assets/NIPP_Plan.pdf.
---------------------------------------------------------------------------
Innovation
    Any proposed legislation must also promote, not stifle, innovation. 
As I discussed earlier, threats are constantly evolving and so must the 
technology to mitigate those threats. Symantec has long been a 
supporter of a National cyber R&D strategy. Any cybersecurity 
innovation legislation must promote technology advancement so we can 
stay ahead of the curve. Cybersecurity policy should therefore maximize 
the ability of organizations to develop and adopt the widest possible 
choice of cutting-edge cybersecurity solutions. An effective way to do 
this is through the creation and implementation of a National 
Cybersecurity R&D Plan.
    Currently, we have a Federal plan for cyber R&D, but industry must 
be part of the larger process, with prioritized, National-level 
objectives set jointly by public and private partners. The public-
private partnership should be used to create a genuine National 
Cybersecurity R&D Plan that contains a detailed road map and specifies 
the respective roles of each partner. This would include input from 
industry, academia, and Federal, State, and local governments. The plan 
and its implementation road map should be regularly reviewed by the 
partners to verify the action plan, determine progress and 
accountability, and adjust as necessary.
           roles of industry and government in cybersecurity
    In discussing public-private partnerships, we should first consider 
the various roles of industry and Government with regard to defending 
critical infrastructure. The private sector's role is clearly defined 
to operate and protect their critical information networks. Just as a 
private citizen needs to lock the doors to their home, infrastructure 
owners and operators need to ensure that their network security 
environment is the most up to date to defend against the latest 
threats.
    In addition, industry must continually tune their security 
environments to manage the level of risk associated with the 
information they are protecting, while at the same time working within 
the current economic pressures of doing more with less. Further, 
industry must move from a device-centric security model to one that is 
identity- and information-centric, with a focus on infrastructure that 
is secured and more importantly trustworthy. The new security paradigm 
of ``data-centricity'' is not only about protection of devices, but 
more importantly is about protecting the information.
    While the defense of critical infrastructures and the networks they 
rely on rests with owners and operators, the Government does play an 
important role in cybersecurity. As discussed above, Government has the 
ability to create incentives that encourage the adoption of 
cybersecurity technologies. It can also assist with education, 
training, and awareness to improve the first line of defense by 
empowering users. In addition, the Government can serve as a 
facilitator for preparedness by sponsoring exercises and drills that 
include private industry. Further, it can raise the bar of security 
within the Government by outlining minimum requirements for Government 
procurement. Last, the Government can support public-private 
partnerships and information sharing with industry to improve overall 
cybersecurity situational awareness.
    While the Government plays a number of roles in cybersecurity, one 
of the challenges is measuring the effectiveness of Government CIP 
programs. To examine awareness, engagement, and readiness with regard 
to Government CIP programs, Symantec conducts an annual global survey 
of critical infrastructure providers. Released in October, our 2011 
Critical Infrastructure Protection Survey, found a drop in awareness 
and engagement on a global basis.\7\ We saw a marked decline in 
companies that are engaged in Government CIP programs, with 37 percent 
in 2011, compared to 56 percent in 2010.
---------------------------------------------------------------------------
    \7\ Symantec's Critical Infrastructure Protection Survey is the 
result of research conducted in August and September 2011 by Applied 
Research, which surveyed C-level, IT professionals in SMBs and 
enterprises in 14 industries specifically designated as critical 
infrastructure industries. The survey included 3,475 organizations from 
37 countries in North America, Europe, Middle East and Africa, Asia 
Pacific, and Latin America http://www.symantec.com/about/news/release/
article.jsp?prid=20111030_01.
---------------------------------------------------------------------------
    While the findings of this survey are somewhat alarming, it is not 
that surprising. Many survey respondents reported limitations on 
staffing and resources which help explain why critical infrastructure 
providers have had to prioritize and focus their efforts on more day-
to-day cyber threats. However, given the increase in targeted attacks, 
such as Stuxnet, Duqu, and Nitro, against critical infrastructure 
providers, businesses and governments around the world should be 
aggressive in their efforts to promote and coordinate protection of 
critical cyber networks. Given the survey results, we have several 
recommendations for governments to promote CIP programs to owners and 
operators in order to raise awareness:
  <bullet> Governments should continue to put forth the resources to 
        establish government critical infrastructure programs.
    <bullet> The majority of critical infrastructure providers confirm 
            that they are aware of government critical infrastructure 
            programs.
    <bullet> Furthermore, a majority of critical infrastructure 
            providers support efforts by the government to develop 
            protection programs.
  <bullet> Governments should partner with industry associations and 
        private enterprise groups to disseminate information to raise 
        awareness of government CIP organizations and plans, with 
        specifics about how a response would work in the face of a 
        national cyber attack, what the roles of government would be, 
        who the specific contacts are for various industries at a 
        regional and national level, and how government and private 
        business would share information in the event of an emergency.
  <bullet> Governments should emphasize to critical infrastructure 
        providers and enterprises that their information be stored, 
        backed up, organized, prioritized, and that proper identity and 
        access control processes are in place.
         views on draft legislative proposal for cybersecurity
    Symantec was pleased to review the draft bill that has been 
circulated by you, Mr. Chairman. The draft legislation is a positive 
step forward in developing a National cybersecurity policy that helps 
fulfill the core principles I discussed above.
National Cybersecurity Authority
    To accomplish the goal of improving cybersecurity, we believe there 
needs to be improved coordination between and among entities. 
Currently, there are several Government agencies working on various 
aspects of cybersecurity, though there is no designated lead. Thus, we 
are supportive of the bill's designation of a single entity as the 
``National Cybersecurity Authority.'' We must be mindful, however, that 
we do not create an additional level of bureaucracy.
Risk Assessment and Standards
    We support the bill's inclusion of a risk-based approach to 
cybersecurity. Requiring the Secretary of Homeland Security--in 
collaboration with industry--to identify risks within our cybersecurity 
infrastructure ensures that we do not overburden small businesses with 
unnecessary security requirements, while ensuring that our chemical 
facilities, dams, and electric grid are appropriately protected. We are 
also supportive of using existing internationally recognized consensus-
developed risk-based performance standards, including those developed 
by the National Institute of Standards and Technology (NIST). In 
addition, we support the bill's instruction to the Secretary to develop 
market-based incentives designed to encourage the use of such 
standards.
    We are also especially pleased that the legislation directs DHS to 
take into account how our National cybersecurity strategy and 
implementation policies will enhance economic prosperity. Keeping this 
goal in mind will help to prevent burdensome regulatory policies from 
being implemented. It also appropriately emphasizes the need to 
maximize market-based incentives and public-private partnerships for 
improved cybersecurity.
Information Sharing
    Finally, we support the bill's emphasis on promoting information 
sharing. The bill clearly articulates that the Government must share 
real-time, actionable information with critical infrastructure owners 
and operators.
    We also understand the motivation to create a National Information 
Sharing Organization, or the NISO. The current system of SCCs and ISACs 
was developed to facilitate bi-directional information sharing between 
and among Government and private industry. These entities have been 
successful in facilitating information sharing within industry, and 
have had varying levels of success in industry-to-Government sharing. 
However, improvements must be made with regard to how well the 
Government shares threat information with private industry.
    We believe that one of the reasons the Government is reluctant to 
share real-time actionable information is because there is no mandate 
to do so. The mandate within the structure of the NISO that the 
Government must share information is a strong step in the right 
direction. However, questions remain about how we will continue to 
utilize the existing entities under the proposed NISO framework. We 
believe this is important given the significant time and resources that 
companies have invested in the SCCs and ISACs. We look forward to 
working with the committee to address these important issues.
                               conclusion
    In conclusion, if we are to successfully mitigate today's multi-
dimensional threats more effectively--and use public-private 
partnerships and information sharing as tools--we must incorporate a 
comprehensive approach for risk, resiliency, and collaboration to 
improve critical infrastructure and cybersecurity. The U.S. public-
private partnership has encountered both successes and challenges over 
the years, but it is clear that we must continue to work together to 
leverage the best that industry and Government bring to the table and 
confront the challenges directly. Recognizing there is no silver bullet 
for cybersecurity, we must shift the dialogue from ``solving'' the 
cybersecurity problem, to ``managing the risk'' associated with it.
    On behalf of Symantec and the Businesses Software Alliance, we 
commend you and your staff's efforts in crafting this legislation that 
appropriately focuses on risk management, information sharing, and 
technology innovation. We look forward to working with you in the 
future as the bill moves through the Congress. I look forward to 
answering any questions you may have.

    Mr. Lungren. Thank you very much.
    Mr. Nojeim.

 STATEMENT OF GREGORY T. NOJEIM, SENIOR COUNSEL AND DIRECTOR, 
    PROJECT ON FREEDOM, SECURITY AND TECHNOLOGY, CENTER FOR 
                    DEMOCRACY AND TECHNOLOGY

    Mr. Nojeim. Chairman Lungren, Ranking Member Clarke, and 
Members of the subcommittee, thank you for the opportunity to 
testify today on behalf of the Center for Democracy and 
Technology. CDT is a nonprofit public-interest organization 
dedicated to keeping the internet open, innovative, and free.
    We applaud the subcommittee for holding this hearing on 
cybersecurity legislation. I will address the information-
sharing provisions in the draft bill in some detail, but start 
with some high-level observations about the bill which we think 
is a very good start. It has a light regulatory touch, 
generally relying on market incentives rather than Government 
mandates to increase cybersecurity performance. A heavy-handed 
approach, by contrast, could discourage security innovation. 
The regulation it imposes would extend primarily to owners and 
operators of critical infrastructure information systems. It 
defines critical infrastructure more carefully than do other 
bills, but more specificity would be helpful. It properly 
cements DHS as the lead Federal agency for the civilian 
cybersecurity program instead of giving this role to NSA or 
Cyber Command.
    Civilian control promotes the transparency and trust that 
are essential to program success. The bill appropriately avoids 
giving the Government the authority to shut down or limit 
internet traffic in a cybersecurity emergency. Conferring such 
authority is anthema to civil liberties. It also undermines 
security by discouraging companies from sharing information 
that could be used to shut down their operations. Most 
importantly, instead of giving the Government the authority to 
monitor privately-owned networks for intrusions, it leaves this 
authority where it belongs: With the private sector network 
operators who know their systems best.
    We are, concerned, though about the information-sharing 
provisions of the bill and we encourage you to tighten them. 
The bill would create a non-profit industry-led, quasi-
Governmental National Information-Sharing Organization, NISO, 
through which cyberthreat information would be shared among its 
Governmental and private sector members. A privately-run 
information-sharing organization is more likely to have the 
necessary agility than would a Government-run entity. NISO's 
initial board of directors, hand-picked by DHS, would set the 
information-sharing rules, but the current draft of the bill 
gives it little guidance on what those rules should require and 
provides little privacy protection.
    Some amendments could address these problems. The bill 
should narrowly define the cyberthreat information that can be 
shared. This would preclude the flow--the unnecessary flow of 
large streams of private communications through NISO to its 
Governmental members.
    The bill should ensure that information shared for 
cybersecurity purposes is used for cybersecurity. This would 
prevent cybersecurity information sharing from devolving into 
something approaching a surveillance program. It would also 
prevent companies from using the data that is shared for 
commercial purposes unrelated to cybersecurity, such as for 
behavioral advertising.
    The bill should require minimization of personally 
identifiable information and communication shared through NISO.
    Finally, the information-sharing rule should be 
enforceable. The bill currently imposes no liability on 
private-sector employees and on employees of State and local 
governments who violate the information-sharing rules. These 
matters must be addressed in the legislation. NISO's board will 
not adopt rules to adequately address them absent clear, 
strong, specific Congressional direction to do so. We caution 
you against amending the bill to permit information to flow to 
or from NISO, notwithstanding any law. Such provisions are 
almost sure to have unintended consequences.
    The cybersecurity bill of the House Intelligence Committee 
reported last week includes such a provision, and it is coupled 
with an overbroad definition of cyberthreat. They worked 
together in that legislation to permit communication service 
providers to share with intelligence, law enforcement, and 
other agencies' ordinary user traffic that the providers 
routinely monitor for cyberthreats. It would be unwise to go 
down that road. Cybersecurity legislation need not override 
privacy and other laws to promote information sharing. An 
incremental approach is called for.
    Targeted exceptions to privacy and other laws may be 
necessary and we will work with you to craft them. Thank you.
    [The statement of Mr. Nojeim follows:]
                Prepared Statement of Gregory T. Nojeim
                            December 6, 2011
    Chairman Lungren, Ranking Member Clarke, and Members of the 
subcommittee: Thank you for the opportunity to testify today on behalf 
of the Center for Democracy & Technology.\1\ We applaud the 
subcommittee for holding a hearing on draft legislation to address 
significant cybersecurity challenges. Clearly, cybersecurity is a 
growing problem that Congress needs to address, but with a careful, 
nuanced, and incremental approach in order to minimize the unintended 
consequences, such inhibiting innovation, diminishing privacy, or 
damaging civil liberties. We believe that the legislation you are 
considering is a good start in many ways and that it could use some 
improvements in key areas:
---------------------------------------------------------------------------
    \1\ The Center for Democracy & Technology is a non-profit public 
interest organization dedicated to keeping the internet open, 
innovative, and free. Among our priorities is preserving the balance 
between security and freedom. CDT coordinates a number of working 
groups, including the Digital Privacy and Security Working Group 
(DPSWG), a forum for computer, communications, and public interest 
organizations, companies, and trade associations interested in 
information privacy and security issues.
---------------------------------------------------------------------------
  <bullet> The draft bill has a light regulatory touch, generally 
        relying on market incentives rather than Government mandates to 
        increase cybersecurity performance. This approach, which we 
        favor, encourages companies to enhance their cyber defenses 
        without forcing compliance with Government-imposed standards 
        that could discourage security innovation.
  <bullet> The regulation that the draft bill would impose extends 
        primarily to owners and operators of critical infrastructure 
        systems, so it is important to carefully define those systems.
  <bullet> The draft bill wisely cements the role of the Department of 
        Homeland Security as the lead Federal agency for cybersecurity 
        for the civilian Government and private sectors, instead of 
        putting an element of the Defense Department in this role.
  <bullet> The draft bill appropriately avoids giving the Government 
        authority to shut down or limit internet traffic in a 
        ``cybersecurity emergency.''
  <bullet> We are concerned about the information-sharing provisions of 
        the draft bill and the impact that they could have on privacy. 
        We will share our suggested changes to those provisions.
 network providers--not the government--should monitor privately-owned 
                        networks for intrusions
    One of the most important things to get right about cybersecurity--
for civil liberties and for effectiveness--is to ensure that the 
private sector remains responsible for monitoring and protecting its 
own networks and that monitoring authority not be transferred, directly 
or indirectly, to the Government. When the White House released the 
Cyberspace Policy Review on May 29, 2009, President Obama embraced this 
principle, stating:

``Our pursuit of cybersecurity will not--I repeat, will not--include 
monitoring private sector networks or internet traffic. We will 
preserve and protect the personal privacy and civil liberties that we 
cherish as Americans.''

    CDT strongly agrees. No Governmental entity should be involved in 
monitoring private communications networks as part of a cybersecurity 
initiative. This is the job of the private-sector communications 
service providers themselves, not of the Government. Most critical 
infrastructure computer networks are owned and maintained by the 
private sector. Private system operators know their systems best and 
they already monitor those systems on a routine basis to detect and 
respond to attacks as necessary to protect their networks; it is in 
their business interest to continue to ramp up these defenses.
    At a top-line level, all of the major cybersecurity bills, 
including the legislation the White House has proposed, honor the 
administration's pledge. But Government monitoring of private-to-
private communications likely will not occur through the front door. 
Rather, Government monitoring would most likely grow as an indirect 
result of information sharing between the private and public sectors or 
as an unintended by-product of programs put in place to monitor 
communications to or from the Government. For that reason, we focus 
extensively here on the information-sharing provisions of the draft 
bill. We conclude that they have benefits over the language in both the 
administration bill and the Cyber Intelligence Sharing and Protection 
Act reported by the House Intelligence Committee on December 1 (H.R. 
3523), but we also see areas that need to be clarified or otherwise 
improved.
   sharing information between the private sector and the government
    There is widespread agreement that the current level of 
cybersecurity information sharing is inadequate. Private-sector network 
operators and Government agencies monitoring their own networks could 
better respond to threats if they had more information about what other 
network operators are seeing. How to encourage more robust information 
sharing without putting privacy at risk is a central policy challenge 
that falls to Congress to resolve.
Preferred Approach to Information Sharing
    CDT strongly recommends an incremental approach to the information-
sharing problem. First, Congress should determine exactly what 
information should be shared that is not shared currently, and why it 
is not being shared. We believe that what is most important to share is 
attack signatures, information describing other exploits, and 
information identifying the source or attribution of attacks or probes. 
The assessment of current practices should start with an understanding 
of why existing structures, such as the U.S. Computer Emergency 
Readiness Team (``US-CERT'') \2\ and the public-private partnerships 
represented by the Information Sharing and Analysis Centers (ISACs),\3\ 
are inadequate. The Government Accountability Office (GAO) has made a 
series of suggestions for improving the performance of US-CERT.\4\ The 
suggestions include giving US-CERT analytical and technical resources 
to analyze multiple, simultaneous cyber incidents and to issue more 
timely and actionable warnings; developing more trusted relationships 
to encourage information sharing; and providing US-CERT sustained 
leadership within DHS that could make cyber analysis and warning a 
priority. All of these suggestions merit attention.
---------------------------------------------------------------------------
    \2\ US-CERT is the operational arm of the Department of Homeland 
Security's National Cyber Security Division. It helps Federal agencies 
in the .gov space to defend against and respond to cyber attacks. It 
also supports information sharing and collaboration on cybersecurity 
with the private sector operators of critical infrastructures and with 
State and local governments.
    \3\ Each critical infrastructure industry sector defined in 
Presidential Decision Directive 63 has established an Information 
Sharing and Analysis Center (ISAC) to facilitate communication among 
critical infrastructure industry representatives, a corresponding 
Government agency, and other ISACs about threats, vulnerabilities, and 
protective strategies. See Memorandum from President Bill Clinton on 
Critical Infrastructure Protection (Presidential Decision Directive/
NSC-63) (May 22, 1998), http://www.fas.org/irp/offdocs/pdd/pdd-63.htm. 
The ISACs are linked through an ISAC Council, and they can play an 
important role in critical infrastructure protection. See The Role of 
Information Sharing and Analysis Centers (ISACs) in Private/Public 
Sector Critical Infrastructure Protection 1 (January 2009), http://
www.isaccouncil.org/whitepapers/files/ISAC_Role_in_CIP.pdf.
    \4\ See Government Accountability Office, Cyber Analysis and 
Warning: DHS Faces Challenges in Establishing a Comprehensive National 
Capability (July 2008), http://www.gao.gov/products/GAO-08-588.
---------------------------------------------------------------------------
    Second, an assessment should be made of whether the newly-
established National Cybersecurity and Communications Integration 
Center (NCCIC) has addressed some of the information-sharing issues 
that have arisen. The NCCIC is a round-the-clock watch and warning 
center established at DHS. It combines US-CERT and the National 
Coordinating Center for Communications and is designed to provide 
integrated incident response to protect infrastructure and networks.\5\ 
Industry is now represented at the NCCIC \6\ and its presence there 
should facilitate the sharing of cybersecurity information about 
incidents.
---------------------------------------------------------------------------
    \5\ See DHS Press Release announcing opening of the NCCIC, http://
www.dhs.gov/ynews/releases/pr_1256914923094.shtm.
    \6\ See DHS Press Release announcing that it has agreed with the 
Information Technology Information Sharing and Analysis Center (IT-
ISAC) to embed a full-time IT-ISAC analyst at the NCCIC, November 18, 
2010, http://www.dhs.gov/ynews/releases/pr_1290115887831.shtm.
---------------------------------------------------------------------------
    Third, Congress must make a realistic assessment as to whether an 
information-sharing model that puts the Government at the center--
receiving information, analyzing it, and sharing the resulting analysis 
with industry--could ever act quickly enough to respond to fast-moving 
threats. Though the White House cybersecurity proposal \7\ and the lead 
Senate bill, the Cybersecurity and Internet Freedom Act, (S. 413) adopt 
the Government-centric approach, we have serious concerns about it. An 
industry-based model, subject to strong privacy protections, would be 
able to act more quickly and would raise few, if any, of the Fourth 
Amendment concerns associated with a Government-centric model.
---------------------------------------------------------------------------
    \7\ The text and an analysis of the White House proposal are at 
http://www.whitehouse.gov/omb/legislative_letters.
---------------------------------------------------------------------------
    Fourth, Congress must account for the significant authority current 
law gives providers of communications service authority to monitor 
their own systems and to disclose to Governmental entities in formation 
about cyber attack incidents for the purpose of protecting their own 
networks. In particular, the Federal Wiretap Act already provides that 
it is lawful for any provider of electronic communications service to 
intercept, disclose, or use communications passing over its network 
while engaged in any activity that is a necessary incident to the 
protection of the rights and property of the provider.\8\ This includes 
the authority to disclose communications to the Government or to 
another private entity when doing so is necessary to protect the 
service provider's network. Likewise, under the Electronic 
Communications Privacy Act (ECPA), a service provider, when necessary 
to protect its system, can disclose stored communications \9\ and 
customer records \10\ to any Governmental or private entity.\11\ 
Furthermore, the Wiretap Act provides that it is lawful for a service 
provider to invite in the Government to intercept the communications of 
a ``computer trespasser''\12\ if the owner or operator of the computer 
authorizes the interception and there are reasonable grounds to believe 
that the communication will be relevant to investigation of the 
trespass.\13\ These provisions do not, in our view, authorize on-going 
or routine disclosure of traffic by the private sector to Governmental 
entities but, rather, go a long way to authorizing the type of targeted 
information sharing that we believe is needed.
---------------------------------------------------------------------------
    \8\ 18 U.S.C.  2511(2)(a)(i).
    \9\ 18 U.S.C.  2702(b)(3).
    \10\ 18 U.S.C.  2702(c)(5).
    \11\ Another set of exceptions authorizes disclosure if ``the 
provider, in good faith, believes that an emergency involving danger of 
death or serious physical injury to any person requires disclosure 
without delay of communications [or information] relating to the 
emergency.'' 18 U.S.C.  2702(b)(8) and (c)(4).
    \12\ A ``computer trespasser'' is someone who accesses a computer 
used in interstate commerce without authorization. 18 U.S.C.  
2510(21).
    \13\ 18 U.S.C.  2511(2)(i).
---------------------------------------------------------------------------
    While current law authorizes providers to monitor their own systems 
and to disclose voluntarily communications and records necessary to 
protect their own systems, the law does not authorize service providers 
to make disclosures to other service providers or to the Government to 
help protect the systems of those other service providers. We believe 
it probably should. There may be a need for a very narrow exception to 
the Wiretap Act, ECPA, FISA, and other laws that would permit 
disclosures about specific attacks and malicious code on a voluntary 
basis and that would immunize companies against liability for these 
disclosures.
    The exception would be narrow so that routine disclosure of 
internet traffic to the Government or other entities remains clearly 
prohibited. It would bar the disclosure to the Government of vast 
streams of communications data, but permit liberal disclosure of 
carefully defined cyber attack signatures and cyber attack attribution 
information. It may also need to permit disclosure of communications 
content that defines a method or the process of a cyber attack. Rather 
than taking the dangerous step of overriding the surveillance statutes, 
such a narrow exception could operate within them, limiting the impact 
of cybersecurity information sharing on personal privacy.
Information Sharing in the Draft Bill \14\
---------------------------------------------------------------------------
    \14\ In addition to the information-sharing entity discussed at 
length below, the draft bill calls on DHS to facilitate information 
sharing and interactions and collaborations among Federal agencies, 
State and local governments and academic and international partners, to 
disseminate timely and actionable cybersecurity threat, vulnerability, 
and mitigation information, to compile and analyze risks and incidents 
regarding threats to Federal systems and critical infrastructure 
information systems, and to provide incident detection, analysis, 
mitigation, and response information to Federal agencies and to private 
entities and other Governmental entities that own or operate critical 
infrastructure. This is consistent with its duties today.
---------------------------------------------------------------------------
    The draft bill establishes \15\ the National Information Sharing 
Organization (NISO), a non-profit, quasi-Governmental organization to 
serve as a National clearinghouse for the exchange of undefined ``cyber 
threat information''--including information derived from intelligence 
collection--among owners and operators of critical and non-critical 
networks and systems in the private sector, the Federal Government, 
State and local governments, and educational institutions. One of its 
goals would be to create a ``common operating picture'' by combining 
network and cyber threat warning information shared with the Federal 
Government and with NISO members designated by its board of directors. 
NISO would be required by law to ensure that information exchanged is 
stripped of all information that identifies the submitting entity, but 
it would not be required by law to minimize personally identifiable 
information that is shared. Threat and vulnerability information 
derived from intelligence collection could only be shared with cleared 
NISO members.
---------------------------------------------------------------------------
    \15\ It is not clear whether NISO is a newly-established non-
profit, or whether an existing non-profit, or existing non-profits, 
would become NISO. This should be clarified.
---------------------------------------------------------------------------
    DHS would select NISO's initial board of directors. That board 
would set procedures for future board elections and criteria for 
membership in NISO by non-Federal entities. It would establish a 
governing charter setting information-sharing rules for NISO and its 
members, including the treatment of intellectual property, limitations 
on liability, measures to mitigate anti-trust concerns, and protections 
of privacy and civil liberties. NISO would determine the extent to 
which its own activities would be transparent to the public--
information submitted to and exchanged through NISO would be exempt 
from disclosure under FOIA and information it shares with State and 
local governments would be exempt from disclosure under State law.
    Participation in NISO would be mandatory for the Departments of 
Energy, Defense, and Homeland Security and the FBI. Other entities such 
as companies, State and local governments, and academic institutions 
would participate voluntarily by becoming members under criteria 
established by the NISO board of directors and by paying membership 
fees determined by the board.\16\ Industry representatives would 
dominate its board of directors, which would include representatives of 
small business, seven critical infrastructure sectors, DHS, the 
Department of Defense, the Department of Justice, the intelligence 
community and the privacy and civil liberties community.\17\
---------------------------------------------------------------------------
    \16\ Up to 15 percent of NISO's annual expenses would come out of 
the DHS budget.
    \17\ Industry representatives would outnumber Governmental 
representatives by 2-1 and would outnumber privacy and civil liberties 
community representatives by 5-1.
---------------------------------------------------------------------------
Evaluation of the Proposed Information-Sharing Regime
    At a top-line level, NISO would be something of a ``super ISAC.'' 
Like an ISAC, it would be convened by the Government, devoted to 
cybersecurity information sharing, and dominated and paid for by 
industry. It would partner with the same Governmental and private 
organizations that an effective ISAC would. The largest differences are 
that NISO is not sector-specific, thus facilitating information sharing 
across sectors, that some of its information-sharing rules are guided 
by statute instead of being set by its members or governing board, and 
its enabling statute removes any doubt that classified cybersecurity 
information could be shared with participating entities cleared to 
receive it. Whether NISO will be effective or not seems to turn on 
whether it addresses deficiencies in the current ISAC/US-CERT 
structures. We suggest that you measure NISO against any identified 
shortcomings in these existing structures to ensure that the bill does 
not establish a redundant information-sharing entity.
    We would make a number of suggestions to protect privacy and 
promote efficacy if the committee determines to move forward with 
NISO:\18\
---------------------------------------------------------------------------
    \18\ The NISO provisions are very much a work in progress and we 
will be suggesting some technical clarifications to staff that are not 
outlined here.

    1. Carefully define, with reference to existing law, the cyber 
        threat information that can be shared with or through NISO. It 
        is not necessary to run a bulldozer through existing laws that 
        protect privacy and other societal values with a provision 
        permitting the sharing of broadly-defined cyber threat 
        information ``notwithstanding any law.'' Such an open-ended 
        exception would be damaging to privacy and would likely have 
        adverse unintended effects. Both the White House information-
        sharing proposal and the House Intelligence Committee's Cyber 
        Intelligence Sharing and Protection Act, H.R. 3523, have this 
        defect.\19\ In contrast, CIFA, the lead Senate bill, explicitly 
        provides that cyber attack reporting must comply with the 
        surveillance statutes, rather than override them.\20\
---------------------------------------------------------------------------
    \19\ The House Intelligence Committee's bill defines cyber threat 
information so broadly that it would permit carriers to share all of 
the communications traffic they scan to protect their networks, and to 
share that traffic with the FBI, NSA, and other Governmental agencies. 
Our analysis of the bill can be found at http://www.cdt.org/blogs/
gregnojeim/112cyber-intelligence-bill-threatens-privacy-and-civilian-
control.
    \20\ S. 413, the Cybersecurity and Internet Freedom Act of 2011, 
proposed Section 246(c)(1)(A)(ii) to the Homeland Security Act.

    2. Restrict the purpose and use of the information being shared to 
        cybersecurity. Cybersecurity should not become a back door for 
        the flow of information to the Government for law enforcement 
        purposes, or to the private sector to help it target 
        advertising or for other commercial purposes unrelated to 
        cybersecurity. The draft bill falls short in this area, 
        permitting Government participants in NISO to use information 
        shared to prosecute any crime,\21\ and permitting industry 
        participants to use the information for any commercial purpose, 
        including commercial purposes that might be at odds with the 
        interests of the party submitting the information. While the 
        bill permits entities submitting information to NISO to impose 
        use and disclosure restrictions on the information when it is 
        disclosed to officials of the U.S. Government, this provides 
        little comfort to the computer user to whom the disclosed 
        information may pertain and whose interests may not align with 
        those of the company submitting the information. We are 
        particularly concerned about the degree to which personally 
        identifiable information and communications content would flow 
        to Governmental entities through the NISO. These issues should 
        be addressed by law; rules and procedures the NISO board adopts 
        will not be sufficient.
---------------------------------------------------------------------------
    \21\ Since the prosecution of cybersecurity crimes serves a 
cybersecurity purpose, cyber threat information shared through the NISO 
could be used to prosecute such crimes, including violations of the 
Computer Fraud and Abuse Act.

    3. Make the restrictions on information sharing enforceable by 
        people and entities aggrieved by violations. Companies that 
        share carefully-defined cyber threat information through NISO 
        should be insulated against liability for doing so. However, if 
        they break the rules, there should be consequences. The current 
        draft makes it a misdemeanor for an employee of the Federal 
        Government to knowingly disclose without authorization cyber 
        threat information protected against disclosure. There are no 
        penalties if a State or local official or an employee of a 
        company participating in the NISO makes a similar disclosure. 
        The bill's penalties should apply to intentional violations by 
---------------------------------------------------------------------------
        State or local officials or private-sector employees.

    4. Require that information sharing to and from the NISO minimize 
        the personally identifiable information and communications 
        content that is shared. When cyber threat information includes 
        PII or communications content that is not necessary to identify 
        and respond to the threat, such information need not, and 
        should not be shared, and the bill should so provide. Like the 
        White House bill, it should require destruction of 
        communications intercepted or disclosed for cybersecurity 
        purposes that do not appear to be related to cybersecurity 
        threats.

    5. Ensure that information sharing by NISO members is voluntary. We 
        assume that the bill does not intend to mandate information 
        sharing, but proposed Section 248 in the draft bill, entitled 
        ``Voluntary Information Sharing,'' does not actually specify 
        that information-sharing be voluntary. Instead, the bill 
        permits the NISO board to set the information-sharing rules, 
        which could be misread as permitting the board to adopt a rule 
        that would require members to share information as a condition 
        of membership. The enabling statute should prohibit the NISO 
        board from adopting any such rule.

    6. Enhance transparency with audits and Inspector General reports. 
        DHS Inspector General should be required to issue an annual 
        report that evaluates the efficacy of NISO's information-
        sharing activities and their impact on privacy. These reports 
        should be public, but may have a classified annex. The bill 
        could also require publicly-reported independent audits to 
        ensure that information sharing though NISO comports with 
        statutory requirements and rules and procedures adopted by the 
        NISO board.

    7. Consider whether information sharing through NISO should be 
        complemented by efforts to enhance information sharing directly 
        within industry, subject to audits, reporting and other privacy 
        controls. While it may have disadvantages, a distributed 
        information-sharing system may be more nimble than a 
        centralized, hub-and-spoke model.
 cybersecurity role of the department of homeland security and of dod 
                                entities
    The draft bill would firmly establish DHS as lead Federal agency 
responsible for improving the security of civilian Federal systems and 
for working with the private sector to improve the security of civilian 
critical infrastructure systems. Under the bill, DHS cybersecurity 
activities would include: Conducting risk assessments of Federal 
systems and, upon request, of privately-owned critical infrastructure 
information systems; facilitating adoption of new cybersecurity 
policies and practices; becoming a focal point within the Federal 
Government for protecting Federal systems and critical infrastructure 
systems; coordinating among Federal agencies and State and local 
governments, academia, and international partners on cybersecurity; 
developing a cybersecurity incident response plan; sharing information 
about cyber threats and vulnerabilities and mitigation strategies with 
Governmental agencies and with owners and operators of critical 
infrastructure information systems; and a host of other cybersecurity 
activities.
    Putting DHS in the lead is the right approach, and in this regard 
the draft bill is superior to other proposals that could put an element 
of the Department of Defense--the National Security Agency or Cyber 
Command--formally or de facto at the head of civilian cybersecurity 
efforts. Some have suggested that these military entities be given a 
lead role because of their expertise and resources. We believe that to 
be most effective, the Government's cybersecurity program should 
harness the expertise and resources of the DOD, but a civilian agency 
must remain in control of the overall program in order to ensure 
transparency and thereby instill trust of the private sector and the 
public. Less transparency means less trust, less corporate 
participation, and less effectiveness of the Government's cybersecurity 
program.
    Over 85% of critical infrastructure information systems are owned 
and operated by the private sector, which also provides much of the 
hardware and software on which Government systems rely, including the 
Government's classified systems. The private sector has valuable 
information about vulnerabilities, exploits, patches, and responses. 
Private-sector operators may hesitate to share this information if they 
do not know how it will be used and whether it will be shared with 
competitors. Private-sector cooperation with Government cybersecurity 
effort depends on trust. A lack of transparency undermines trust and 
has hampered cybersecurity efforts to date. In addition, without 
transparency, there is no assurance that cybersecurity measures 
adequately protect privacy and civil liberties and adhere to due 
process and Fair Information Practice Principles. Transparency is also 
essential if the public is to hold the Government accountable for the 
effectiveness of its cybersecurity measures and for any abuses that 
occur.
    NSA and Cyber Command, operate, understandably, in a culture of 
secrecy that is incompatible with the information sharing necessary for 
the success of a civilian cybersecurity program. As a result, a DOD 
entity should not be given a leading role in monitoring the traffic on 
unclassified civilian Government systems, nor in making decisions about 
cybersecurity as it affects such systems; its role in monitoring 
private sector systems should be even smaller. Instead, procedures 
should be developed for ensuring that whatever expertise and technology 
DOD has in discerning attacks is made available to a civilian agency. 
We applaud steps taken in this direction, such as the September 27, 
2010 MOU between DHS and DOD setting forth the terms by which each 
agency provides personnel, equipment, and facilities to increase 
collaboration and support and synchronize each other's cybersecurity 
operations.\22\
---------------------------------------------------------------------------
    \22\ Memorandum Agreement Between DHS and DOD Regarding 
Cybersecurity, effective September 27, 2010, http://www.dhs.gov/
xlibrary/assets/20101013-dod-dhs-cyber-moa.pdf.
---------------------------------------------------------------------------
  designations of critical infrastructure should be narrowly targeted
    DHS should concern itself only with genuinely critical 
infrastructure, and that infrastructure should be narrowly defined. A 
narrow definition focuses agency resources where they are most needed 
and ensures minimal conflicts with other regulatory regimes. Such a 
definition also ensures that the burdens of Government reporting and 
regulatory compliance are imposed only on private-sector network 
operators who are truly ``critical'' and limits impact on traditionally 
non-regulated entities.
    In this regard, other cybersecurity proposals raise very serious 
concerns. The May 12, 2011 White House proposal does little to provide 
specificity, defining critical infrastructure as those entities whose 
incapacity or disruption would cause ``a debilitating impact.''\23\ 
This standard is ambiguous and could sweep vast swaths of U.S. industry 
into a regulatory fold. The Senate's CIFA bill does a better job, and 
requires that the disruption of any critical infrastructure system 
would cause ``a mass casualty event which includes an extraordinary 
number of fatalities,'' ``severe economic consequences,'' ``mass 
evacuations with a prolonged absence,'' or ``severe degradation of 
National security capabilities, including intelligence and defense 
functions.''\24\
---------------------------------------------------------------------------
    \23\ White House proposal, proposed Section 3(b)(1)(A) of the 
Cybersecurity Regulatory Framework for Critical Infrastructure Act.
    \24\ S. 413, Cybersecurity and Internet Freedom Act of 2011, 
proposed Section 254 of the Homeland Security Act and amendments to 
Section 210E of the Homeland Security Act.
---------------------------------------------------------------------------
    The draft bill does better than either the administration proposal 
or the Senate bill. It defines covered critical infrastructure as a 
facility or function which, if destroyed, disrupted, or accessed 
without authorization, through exploitation of a cyber vulnerability, 
would result in: (i) loss of thousands of lives; (ii) major economic 
disruption, including disruption or failure of financial markets; (iii) 
mass evacuation of a major metropolitan area for longer than 30 days; 
or (iv) severe degradation of national security or non-military defense 
functions. While more precise than the definition of critical 
infrastructure in either the White House proposal or in CIFA, this 
definition, too, would benefit from more specificity.
    It would be useful, for example, for the statute to define the 
level of economic disruption and of lives lost that would trigger 
coverage as ``critical infrastructure.'' DHS has already drawn these 
lines in its definitions of Tier 1 and Tier 2 Critical Infrastructures 
and Key Resources, and DHS uses these more precise definitions to 
allocate resources used to protect critical assets. If the draft bill 
becomes law as written, DHS would have discretion in specifying what is 
critical and what is not. It could draw those lines as it already has 
or it could draw new lines. The question for the committee is whether 
Congress draws the lines that determine what assets are subject to DHS 
regulation or whether to leave that decision to DHS. We favor Congress 
drawing those lines in a transparent, precise, and measureable way. We 
also suggest that the draft bill be amended to include a meaningful 
appeal process companies could trigger when they believe an asset of 
theirs has been incorrectly designated as ``critical infrastructure.''
   incentivizing risk-based conduct to secure critical infrastructure
    In terms of enhancing the security of private networks and systems, 
the Government may assist the private sector but it should not intrude 
into the details of private sector cybersecurity planning processes and 
it should not dictate technology standards. Certain agencies may have 
unique insights into burgeoning threats, specific attack signatures, or 
useful defensive techniques, but private-sector information 
technologists typically understand the operation of their own networks 
better than Government regulators. The goal should be to enhance the 
capability of the private sector, not to transfer it to the Government. 
Furthermore, when it comes to securing critical infrastructure, one 
size does not fit all. Existing regulatory regimes reflect this 
reality: The regime governing operation of a nuclear power plant is 
much more prescriptive that the regulatory regime governing most 
information technology. Cybersecurity measures should build on this 
insight.
    The draft bill would authorize DHS, in coordination with Federal 
agencies and owners and operators of critical infrastructure, to assess 
cybersecurity risks to critical infrastructure and the harms that could 
result from disruption, destruction, or unauthorized use of critical 
infrastructure information systems. DHS would also catalogue 
internationally recognized consensus-developed risk-based performance 
standards and develop unspecified market-based incentives designed to 
encourage use of those standards. It would then coordinate with the 
relevant regulatory agencies and private-sector entities to work to 
include the risk-based performance standards in the regulatory regimes 
applicable to the covered critical infrastructure. This approach helps 
ensure alignment between existing regulatory regimes and performance 
standards DHS has identified. In cases where there is no existing risk-
based security performance standard, DHS would work with the owners and 
operators of critical infrastructure to mitigate identified risks and 
would coordinate with international bodies to develop and strengthen 
standards to address the identified risks.
    We believe this consultative, risk-based approach will contribute 
to cybersecurity without inhibiting innovation. It gives DHS 
flexibility to draw distinctions between different types of critical 
infrastructure and to work with industry to identify appropriate risk-
based performance standards for each.
    For the sake of privacy, innovation, and effectiveness, Government 
efforts to improve private-sector cybersecurity should adhere to 
several overarching principles. The Government should generally avoid 
technical mandates. DHS in particular should not have the power to 
dictate technical standards or to override a company's decisions about 
how to best protect its information systems. Nor should DHS have any 
enforcement power with respect to the performance-based standards it 
identifies. Instead, enforcement and oversight should occur through 
existing regulatory schemes. When trying to raise standards, the 
Government should generally avoid punitive measures. Penalizing 
companies that fall short of some standard will discourage the 
reporting of security incidents and will put the Government in the role 
of adversary rather than partner.
    As we understand the section of the draft bill adding a new Section 
227 to the Homeland Security Act, it adheres to these principles. In 
contrast, some of the Senate bills have been particularly worrisome in 
this regard, giving DHS open-ended regulatory powers to approve 
security plans and to penalize actors who fail to comply with those 
regulations.\25\ Under the draft bill, existing regulatory regimes that 
already authorize a Governmental agency (other than DHS) to dictate 
technical standards for an industry or to override decisions of a 
particular company would remain in place. This seems appropriate--it 
would leave enforcement with those agencies already set up to regulate 
a given sector, most of which have already been addressing 
cybersecurity, sometimes for years. The draft bill seeks to empower 
those regulators with additional knowledge about risk-based performance 
standards. It would encourage DHS to play a consultative, rather than a 
directive role, and to work with industry rather than against it. We 
believe the bill is intended to leave decisions about the measures a 
company should take to reach the necessary level of performance where 
those decisions belong, with the people who know those systems best--
the owners and operators of critical infrastructure information systems 
and the regulators who intimately know the industry. It might be 
appropriate to amend the bill to make the foregoing more explicit, as 
the White House did in its own legislative proposal.\26\
---------------------------------------------------------------------------
    \25\ S. 413, Cybersecurity and Internet Freedom Act of 2011, 
proposed Section 250(c) of the Homeland Security Act (civil authorizing 
penalties for violators of Section 248, as added by the bill, which 
establishes a risk management regulatory regime).
    \26\ White House proposal, proposed Section 4(b)(5) of the 
Cybersecurity Regulatory Framework for Critical Infrastructure Act.
---------------------------------------------------------------------------
    For companies that operate critical infrastructure in sectors that 
do not have an existing regulatory regime, the bill includes no 
mechanism to promote the adoption of internationally recognized, 
consensus-driven risk-based performance standards, other than market-
based incentives and the existing authority of the Federal Trade 
Commission, which has brought cases against companies engaging in 
inappropriate security practices involving consumers' personal data. 
While this seems to leave a gap in oversight and enforcement, we 
believe that there is relatively little critical infrastructure that 
does not fall within an existing regulatory scheme. To the extent that 
there are such critical infrastructure systems that do not fall within 
an existing scheme (other than the FTC's overarching Section 5 
authority), the committee to might consider whether it would be 
appropriate to require some level of transparency for companies of a 
certain size so that the public and/or Congress is made aware of when 
such companies fail to adopt and adhere to relevant standards. Any 
transparency requirement should not mandate disclosure of information 
that would tip off hackers to particular vulnerabilities.
          presidential authority in cybersecurity emergencies
    There has been much discussion about whether the President or the 
Department of Homeland Security ought to be given authority to limit or 
shut down internet traffic to or over a privately-owned \27\ critical 
infrastructure information system in an emergency or to disconnect such 
systems from other networks for reasons of National security.\28\ 
Through omission, both the draft bill, and the White House legislative 
package implicitly reject this dangerous idea, and we urge you to 
oppose any efforts that may be made to include it in any cybersecurity 
legislation.
---------------------------------------------------------------------------
    \27\ Presumably, the Government already has the authority to 
disconnect its own systems from the internet and CDT does not challenge 
such authority.
    \28\ The leading Senate cybersecurity bill, S. 413, the 
Cybersecurity and Internet Freedom Act, includes such a provision. For 
an analysis, see http://www.cdt.org/blogs/greg-nojeim/does-senate-
cyber-bill-include-internet-killswitch.
---------------------------------------------------------------------------
    To our knowledge, no circumstance has yet arisen that could justify 
a Governmental order to limit or cut off internet traffic to a 
particular privately owned and controlled critical infrastructure 
system. We know of no dispute where a critical infrastructure operator 
has refused to take appropriate action on its network that would 
justify the exercise of such a power. Operators have strong financial 
incentives to quarantine network elements and limit or cut off internet 
traffic to particular systems when they need to do so. They know better 
than do Government officials whether their systems need to be shut down 
or isolated.
    In contrast, a new Presidential ``shut-down'' power comes with a 
myriad of unexamined risks. A shut-down could interfere with the flow 
of billions of dollars necessary for the daily functioning of the 
economy. It could deprive doctors of access to medical records and 
cripple communications among first responders in an emergency. These 
and other consequences could have world-wide effect because much of the 
world's internet traffic flows through U.S. networks.
    Even if such power over private networks were exercised only 
rarely, its mere existence would pose other risks, enabling a President 
to coerce costly, questionable--even illegal--conduct by threatening to 
shut down a system.
    Giving the Government the power to shut down or limit internet 
traffic would also create perverse incentives. Private-sector operators 
will be reluctant to share information if they know the Government 
could use that information to order them to shut down. Conversely, when 
private operators do determine that shutting down a system would be 
advisable, they might hesitate to do so without a Government order, and 
could lose precious time waiting to be ordered by the Government to 
shut down so as to avoid liability for the damage a shut-down could 
cause others.
    Finally, the grant of unfettered ``shut-down'' authority to the 
President would give aid and comfort to repressive countries around the 
world. The Government of Egypt was widely condemned when it cut off 
internet services to much of its population on January 27, 2011, in 
order to stifle dissent. The United States should not now endorse such 
a power, even if only for cybersecurity purposes, because to do so 
would set a precedent other countries would cite when shutting down 
internet services for other purposes.
    We urge you to reject proposals to give the President or another 
Governmental entity power to limit or shut down internet traffic to 
privately-held critical infrastructure systems.
                               conclusion
    We appreciate the opportunity to testify about the draft 
legislative proposal that is before the committee. We believe the 
legislation is in many ways a good start and that its light regulatory 
touch would enhance cybersecurity without stifling innovation. The bill 
would benefit from some substantial tightening of the information-
sharing provisions, and we have suggested a number of changes. We look 
forward to working with you on those changes and on other provisions of 
the draft legislation as it moves through the legislative process.

    Mr. Lungren. Thank you very much, Mr. Nojeim.
    Mr. Kosar.

 STATEMENT OF KEVIN R. KOSAR, ANALYST IN AMERICAN GOVERNMENT, 
                 CONGRESSIONAL RESEARCH SERVICE

    Mr. Kosar. Chairman Lungren, Ranking Member Clarke, Members 
of the subcommittee, on behalf of the Congressional Research 
Service I would like to thank you for the opportunity to 
testify today.
    CRS was asked to examine draft legislation to amend the 
Homeland Security Act of 2002 to establish a National 
Information-Sharing Organization, or NISO. CRS' examination 
focused solely upon the organizational structure of NISO and 
does not address cybersecurity policy.
    My written testimony provided a preliminary examination and 
analysis of NISO as presently proposed. In my limited time 
here, I will briefly review NISO's proposed structure and 
provide comments on it.
    The draft legislation would establish NISO as a not-for-
profit organization for sharing cyberthreat information and 
exchanging technical assistance, advice, and support, and 
developing and disseminating necessary information security 
technology. NISO would have a 15-person board of directors that 
initially would be appointed by the Secretary of the Department 
of Homeland Security. Board members would include a 
representative from DHS, four persons from Federal agencies 
with cybersecurity responsibilities and ten individuals from 
the private sector.
    After the first year, the private-sector members would be 
replaced through elections held by NISO. As my written 
statement indicates, NISO would appear to meet CRS' definition 
of a quasi-Governmental entity. It would be a Government-
established organization that combines the legal 
characteristics of both the Governmental and private sectors. 
NISO would be authorized by Federal statute and required to 
serve purposes set by Federal statute. Yet NISO also would be 
led by a board comprised mostly of individuals from the private 
sector, and NISO would be mostly funded by the private sector.
    In the limited time available, I was able to locate only 
one precedent for an organization that was substantially 
structured like NISO: SEMATECH, which Congress established by a 
statute in 1987. That said, NISO would have notable differences 
from SEMATECH. Now, quasi-Governmental organizations are not 
new in the United States. Congress chartered the quasi-
Governmental First Bank of the United States in 1791. Quasi-
Governmental entities can be creative vehicles for addressing 
complex public policy issues.
    However, for Congress an enduring question with quasi-
Governmental entities is the matter of accountability; 
specifically, how to ensure a partially or mostly private 
organization will faithfully execute the law and be responsive 
to policymakers.
    Now, trying to ascertain how an organization might behave 
based upon examining its statute is inherently challenging as 
its plain organizational behavior is affected by non-statutory 
factors, such as the quality of its management and the Federal 
Government's oversight thereof.
    With those caveats noted, based upon a preliminary 
analysis, NISO appeared to likely be an organization that would 
operate in a largely self-directed private-sector manner.
    I suggest this based upon the following observations:
    First, the draft legislation would have Federal 
representatives fill a minority, five, of the 15 board 
positions. The rest would be private-sector representatives.
    Second, the board itself, not the President or the DHS 
Secretary, would have the authority to choose NISO's chair and 
co-chair, and these persons must be private-sector 
representatives. Additionally, the board would also be 
empowered to incorporate NISO as an organization, set all its 
rules for operations, employment, and compensation, and to 
appoint its officers.
    Third, who would actually do the day-to-day work of NISO is 
unclear. NISO's board would choose one or more operators based 
upon the criteria set in section 241(d). Additionally, whether 
board members would be full-time employees actively engaged in 
operational oversight is not clear.
    Fourth, NISO would appear to have considerable discretion 
to decide which non-Federal organizations would be permitted or 
able to join NISO.
    Fifth, there would not appear to be any requirement that 
GAO or an inspector general be able to audit or examine NISO's 
books. NISO would not be required, so far as I can tell, to 
provide annual reports to the Congress and the President on its 
operations and whether or not it is reaching its benchmarks.
    Sixth and finally, the draft legislation would limit the 
Federal Government's contribution to no more than 15 percent of 
NISO's annual operating costs. Whether the threat of losing 
that 15 percent contribution would be a sufficient carrot to 
encourage on-going NISO compliance to Government direction is 
not clear.
    I will conclude my testimony here. If CRS may be of further 
assistance to you, I and my colleagues stand ready to help. 
Once again, thank you for the privilege to appear before you 
today.
    [The statement of Mr. Kosar follows:]
                  Prepared Statement of Kevin R. Kosar
                            December 6, 2011
                              introduction
    Chairman Lungren and Ranking Member Clarke, and Members of 
subcommittee--on behalf of the Congressional Research Service, I would 
like to thank you for this opportunity to appear before you today.
    CRS was asked to examine draft legislation that would amend the 
Homeland Security Act of 2002 (6 U.S.C. 101 et seq.; HSA) for multiple 
purposes.\1\ In particular, CRS was asked to provide its observations 
on Section 3 of the draft legislation, which would amend Title II of 
HSA to establish a National Information Sharing Organization (NISO).
---------------------------------------------------------------------------
    \1\ The draft legislation supplied by the committee is dated 
November 2, 2011 (1:58 p.m.).
---------------------------------------------------------------------------
    Per your request, this written statement focuses solely upon the 
organizational structure of the NISO.\2\ It first describes the 
organizational attributes of NISO as proposed in draft legislation, and 
then provides observations on NISO as a type of quasi-Governmental 
entity.
---------------------------------------------------------------------------
    \2\ Thus, no analysis is provided of the role the NISO would play 
in the realm of cybersecurity policy or how NISO would integrate or 
coordinate with existing cybersecurity authorities.
---------------------------------------------------------------------------
             organizational attributes of the proposed niso
    The draft legislation would establish NISO as a ``not-for-profit 
organization for sharing cyber threat information and exchanging 
technical assistance, advice, and support and developing and 
disseminating necessary information security technology.'' The draft 
further defines the NISO's purpose as:

``serving as a National clearinghouse for the exchange of cyber threat 
information so that the owners and operators of networks or systems in 
the private sector, educational institutions, State, Tribal, and local 
governments, entities operating critical infrastructure, and the 
Federal Government have access to timely and actionable information in 
order to protect their networks or systems as effectively as 
possible.''

    The NISO would have a 15-person Board of Directors that would be 
appointed by the Secretary of the Department of Homeland Security. 
Board members would include a representative from the Department of 
Homeland Security, four persons from Federal agencies with 
``significant responsibility for cybersecurity,'' and 10 individuals 
from the private sector. These latter appointees would include two 
representatives from the ``privacy and civil liberties community,'' and 
eight representatives of critical infrastructure stakeholders, 
including: Banking and finance, communications, defense industrial 
base, energy (electricity, oil, and natural gas), health care, and 
information technology. Each Board member would serve 3-year terms, and 
private sector members would be replaced through elections held by the 
NISO.\3\
---------------------------------------------------------------------------
    \3\ The initial private-sector Board members would serve 1-year 
terms, and then would be replaced through elections. Whether said 
members would be permitted to seek re-election is not addressed by the 
legislation.
---------------------------------------------------------------------------
    The Board would be empowered to incorporate the NISO, to choose its 
own chairperson and co-chairperson, and to devise all bylaws and rules 
for the operation of NISO. The draft bill does not address explicate 
whether NISO Board Members would be full-time employees or what their 
compensation would be.
    The draft legislation would limit the Federal Government's 
contribution to 15% of NISO's annual operating costs.
                              observations
NISO: A Governmental, Private Sector, or Quasi-Governmental Entity?
    According to the discussion draft, the NISO would appear to meet 
CRS's definition of a quasi-Governmental entity: A Government-
established organization that combines the legal characteristics of 
both the Governmental and private sectors.\4\ As Table 1 indicates, the 
NISO would have attributes that are Governmental, private sector, and 
hybrid (both Governmental and private sector).
---------------------------------------------------------------------------
    \4\ Generally, see CRS Report RL30533, The Quasi Government: Hybrid 
Organizations with Both Government and Private Sector Legal 
Characteristics, by Kevin R. Kosar.

                TABLE 1.--ATTRIBUTES OF THE PROPOSED NISO
------------------------------------------------------------------------
                                    Private Sector
     Governmental Attributes          Attributes       Hybrid Attributes
------------------------------------------------------------------------
Authorized by Federal statute...  Board members       The Board of
                                   would incorporate   Directors is
                                   the NISO by         comprised of 10
                                   filing              private-sector
                                   incorporation       representatives
                                   papers with a non-  and 5 Federal
                                   Federal authority   agency
                                   (e.g., a State or   representatives.
                                   District of
                                   Columbia).
Required to serve purposes set    The NISO would      NISO would be
 by Federal statute.               have the            funded by both
                                   authority to        the Federal
                                   establish its own   Government and
                                   operating           the private
                                   procedures and      sector.
                                   mission statement.
Secretary of Homeland Security    The NISO is         NISO membership is
 appoints the Board of Directors.  explicitly          partially set by
                                   exempted from the   statute, and
                                   Freedom of          partially devised
                                   Information (Act    by NISO's Board
                                   5 U.S.C. 552).      of Directors.
------------------------------------------------------------------------

    When Congress creates quasi-Governmental entities, it tends to do 
so on an ad hoc basis. That is, each quasi-Governmental entity is 
crafted by a separate statute, and that statute is sculpted according 
to a variety of policy and political considerations. That caveat noted, 
CRS previously has identified a number of types of quasi-Governmental 
entities.\5\ The entities for each of these types share basic 
organizational attributes (e.g., GSEs are for-profit), and these quasi-
Governmental types are listed in Table 2.
---------------------------------------------------------------------------
    \5\ CRS Report RL30533, The Quasi Government: Hybrid Organizations 
with Both Government and Private Sector Legal Characteristics, by Kevin 
R. Kosar.

    TABLE 2.--TYPES OF QUASI GOVERNMENTAL ENTITIES IDENTIFIED BY CRS
------------------------------------------------------------------------
                   Type                                Example
------------------------------------------------------------------------
Quasi-Official Agencies...................  State Justice Institute.
Government-Sponsored Enterprises..........  Fannie Mae.
Federally-Funded Research and Development   Sandia National
 Centers.                                    Laboratories.
Agency-Related Nonprofit Organizations....  (See below):
    Adjunct Organizations Under the         National Pork Board.
     Control of a Department or Agency.
    Organizations Independent of, But       Henry M. Jackson Foundation.
     Dependent Upon, Agencies.
    Nonprofit Organizations Affiliated      National Park Foundation.
     with Departments or Agencies.
Venture Capital Funds.....................  In-Q-Tel.
Congressionally Chartered Nonprofit         American Legion.
 Organizations.
Instrumentalities of Indeterminate          U.S. Investigation Services.
 Character.
------------------------------------------------------------------------
Source.--CRS Report RL30533, The Quasi Government: Hybrid Organizations
  with Both Government and Private Sector Legal Characteristics.

    As presently proposed, the NISO could be characterized as an 
agency-related non-profit organization. NISO would be a non-profit 
organization and it would have an affiliation with the Department of 
Homeland Security by virtue of the Secretary's role in selecting a 
minority of NISO's board members.
    However, NISO organizationally would not fit neatly into any of the 
subtypes of agency-related non-profit organizations above. Rather, it 
would possess characteristics associated with all three subtypes. Like 
the National Pork Board and other agricultural check-off entities, it 
would charge its members fees. As with the Henry M. Jackson Foundation, 
the NISO would undertake a research agenda that is broadly defined in 
statute. And like the National Park Foundation, the NISO would be 
affiliated with a Federal agency and have Federal representatives on 
its board.\6\
---------------------------------------------------------------------------
    \6\ A board comprised of representatives of both the Government and 
private sector is not unusual for quasi-Governmental entities. The 
American National Red Cross, which chartered a century ago, is a well-
known example. Federal representation on the board of the Red Cross was 
changed most recently in 2007. Pub. L. 110-26 authorizes the President 
to appoint one board member and to name the chairman of the board. CRS 
Report RL33910, The Charter of the American National Red Cross: Current 
Issues and Proposed Changes, by Kevin R. Kosar.
---------------------------------------------------------------------------
    One particularly notable aspect of the NISO as currently proposed 
is that it would charter itself. Typically, quasi-Governmental entities 
are chartered via Federal statute; the law itself incorporates the 
entity. Such charters typically set forth the corporation's: (1) Name; 
(2) purpose(s); (3) duration of existence (limited or in perpetuity); 
(4) governance structure (e.g., executives, board members, etc.); (5) 
powers; and (6) the schema for Federal oversight (e.g., annual 
reporting).\7\
---------------------------------------------------------------------------
    \7\ CRS Report RS22230, Congressional or Federal Charters: Overview 
and Current Issues, by Kevin R. Kosar, p. 1.
---------------------------------------------------------------------------
    In the limited time available, CRS could locate only one recent 
precedent for self-chartering--the Semiconductor Manufacturing 
Technology (SEMATECH) consortium--an entity established by Congress in 
1987 (Pub. L. 100-180, Part F; 101 Stat. 1068).\8\
---------------------------------------------------------------------------
    \8\ A copy of SEMATECH's legislation is attached to this 
memorandum.
---------------------------------------------------------------------------
    Congress established SEMATECH in response to the United States' 
growing dependency upon Japan for semiconductors.\9\ Viewing this as a 
National security vulnerability, SEMATECH was a quasi-Governmental 
entity comprised of more than a dozen major domestic semiconductor 
manufacturers, such as AT&T Microelectronics and Intel.\10\ SEMATECH 
was a research and development enterprise whose purposes were to 
``encourage the semiconductor industry in the United States--(A) to 
conduct research on advanced semiconductor manufacturing techniques; 
and (B) to develop techniques to use manufacturing expertise for the 
manufacture of a variety of semiconductor products.'' SEMATECH was 
affiliated with the Department of Defense (DoD) but was led and staffed 
by the private-sector stakeholders (not Government appointees and 
employees).
---------------------------------------------------------------------------
    \9\ CRS Report 92-749 SPR, SEMATECH: Issues in Evaluation and 
Assessment, by Glenn J. McLoughlin. (Archived report available from the 
author of this report.)
    \10\ CRS Report 91-831 SPR, SEMATECH Facts, by Glenn J. McLoughlin. 
(Archived report available from the author of this report.) SEMATECH 
also had an adjunct organization, SEMI/SEMATECH, comprised of 
approximately 130 U.S. equipment suppliers and materials suppliers.
---------------------------------------------------------------------------
    The costs of SEMATECH were shared between the Federal Government 
and the private sector--the Federal Government funded SEMATECH via 
grants authorized by the Secretary of Defense, and SEMATECH charged its 
members annual dues.
    While NISO and SEMATECH share some organizational attributes, there 
are at least two considerable differences (Table 3). First, SEMATECH's 
legislation required the DoD and SEMATECH operate under a memorandum of 
understanding (MOU) that provided the DoD with certain authorities over 
SEMATECH, such as the authority to participate in the development of 
SEMATECH's annual operating plan. Additionally, SEMATECH's statute 
created an Advisory Council on Federal Participation in SEMATECH. This 
12-person panel was comprised of both Federal stakeholders and 
Presidential appointees from the private sector.\11\ The panel advised 
``Sematech and the Secretary of Defense on appropriate technology goals 
for the research and development activities of Sematech and a plan to 
achieve those goals,'' and conducted annual reviews of its 
progress.\12\ The draft legislation for the NISO does not include 
similar provisions.
---------------------------------------------------------------------------
    \11\ The members were: The Under Secretary of Defense for 
Acquisition, who served as chair; the Director of Energy Research of 
the Department of Energy; the Director of the National Science 
Foundation; the Under Secretary of Commerce for Economic Affairs; the 
Chairman of the Federal Laboratory Consortium for Technology Transfer; 
and seven Presidential appointees who were to include four members 
``who are eminent individuals in the semiconductor industry and related 
industries;'' two members ``who are eminent individuals in the fields 
of technology and defense;'' and one member ``who represents small 
businesses.''
    \12\ Additionally, SEMATECH's legislation required annual 
independent audits of SEMATECH and Comptroller General review of these 
audits. SEMATECH had to submit its audits to Congress and the DoD 
Secretary. No reporting or audit requirements are including in the 
draft legislation for the NISO.

    TABLE 3.--COMPARISON OF SELECTED NISO AND SEMATECH ORGANIZATIONAL
                               ATTRIBUTES
------------------------------------------------------------------------
               Similarities                          Differences
------------------------------------------------------------------------
Self-chartering.                            MOU between SEMATECH and
                                             DoD.
Affiliated with a Federal agency.           Advisory Council on Federal
                                             Participation in SEMATECH.
Funded by the Federal Government and
 private sector.
Private sector leadership and employees...
------------------------------------------------------------------------

   quasi-governmental entities: rationales, accountability, and niso
Benefits and History
    Congress has been establishing quasi-Governmental entities since 
the Nation's founding. For example, Congress chartered the First Bank 
of the United States in 1791 (1 Stat. 192, Section 3) to stabilize the 
Nation's currency and provide a safe depository for funds and serve as 
a source of credit. The bank was a hybrid entity--it was capitalized 
through a stock offering, and both the Federal Government and private 
investors purchased shares. The bank's debt was the Nation's debt. 
Private shareholders elected most board members, and the Treasury 
Department was authorized to inspect the bank's accounts.
    The creation of Federal quasi-Governmental entities has increased 
since the 1960s. Many arguments have been advanced to support the 
creation of these hybrid organizations. However, the current popularity 
of the quasi-Government option may be traced to the following 
impetuses:
    1. the desire to avoid creating another Federal ``bureaucracy;''
    2. the current controls on the Federal budget process that 
        encourage Federal agencies to rely less on annual 
        appropriations;
    3. the desire to make Government operate more like a private-sector 
        organization; and
    4. the belief that management flexibility requires entity-specific 
        laws and regulations, and thus exemption from Government-wide 
        management statutes (e.g., Administrative Procedure Act; 5 
        U.S.C. 551 et seq.)\13\
---------------------------------------------------------------------------
    \13\ CRS Report RL30533, The Quasi Government: Hybrid Organizations 
with Both Government and Private Sector Legal Characteristics, by Kevin 
R. Kosar, p. 1. On the Federal Government's management laws, see CRS 
Report RL30795, General Management Laws: A Compendium, Clinton T. 
Brass, Coordinator.
---------------------------------------------------------------------------
    Many quasi-Governmental entities exist, and many have been 
considered to be successful. The National Park Foundation, for example, 
annually raises significant private support for the Nation's public 
parks.\14\
---------------------------------------------------------------------------
    \14\ National Park Foundation, 2011 Annual Report, at http://
www.nationalparks.org/files/about/financials/annual-report-2011.pdf.
---------------------------------------------------------------------------
Cost
    With quasi-Governmental entities there also may come a cost--
reduced accountability to Federal Governmental direction.\15\
---------------------------------------------------------------------------
    \15\ Jonathan G.S. Koppell, The Politics of Quasi Government: 
Hybrid Organizations and the Control of Public Policy (New York: 
Cambridge University Press, 2003); and Ronald C. Moe, ``The Emerging 
Federal Quasi Government: Issues of Management and Accountability,'' 
Public Administration Review, vol. 61, iss. 3, May/June 2001, pp. 290-
312.
---------------------------------------------------------------------------
    An organization's institutional structure can affect its 
accountability to Congress and the President. In simplest terms, the 
more tightly yoked to Legislative and Executive Branch authorities an 
organization is, the more responsive to those authorities the 
organization can be expected to be. Hence, if organizations are 
considered as existing on a spectrum--with a wholly-Governmental agency 
on one end and a wholly-private firm on the other--the former would 
tend to be the most accountable and responsive to Federal direction, 
while the latter the least.
    This organizational responsiveness to Federal direction comes 
through a number of means, including: (1) Federal involvement in the 
appointment of the organization's leadership; (2) the organization's 
location within or outside the Government; (3) requirements for annual 
auditing and reports to Federal authorities (Congress, the President, 
and agency heads); and (4) the organization's reliance on appropriated 
funding.\16\
---------------------------------------------------------------------------
    \16\ An organization that is required to be self-financing will 
have a strong incentive to act in its own self-interest, possibly at 
the cost of fully pursuing its statutorily-prescribed goals or 
complying with Government-prescribed operational rules.
---------------------------------------------------------------------------
    Assessed on these criteria, NISO might be expected to behave 
independently of the Federal Government (Table 4).

            TABLE 4.--ORGANIZATIONAL ACCOUNTABILITY AND NISO
------------------------------------------------------------------------
                                                        NISO
------------------------------------------------------------------------
Federal appointees........................  Minority; 5 of 15 directors
                                             would be Federal
                                             representatives; the board
                                             would choose its chair and
                                             co-chair, who cannot be
                                             Federal representatives.
Location within or outside the Government.  Private sector; not
                                             explicitly placed within a
                                             Federal agency or branch of
                                             Government.
Annual auditing and reporting requirements  None.
Reliance on appropriated funding..........  Low Federal contribution
                                             (not more than 15% of
                                             annual operating costs).
------------------------------------------------------------------------

    Organizational accountability to overseers, it has been noted, is 
not an unalloyed good. A frequent criticism of Federal Governmental 
entities (such as agencies) is that they are too responsive to diverse 
Federal oversight authorities. Their efforts to satisfy the demands of 
diverse stakeholders may result in underperformance of an agency's 
general or National policy objectives.\17\ As noted above, one of the 
arguments for establishing a quasi-Governmental entity is the intention 
that it operate less like a Governmental entity and more like a private 
firm.\18\
---------------------------------------------------------------------------
    \17\ For example, Congress established Base Realignment Commissions 
in order to close unneeded DoD facilities. CRS Report 97-305, Military 
Base Closures: A Historical Review from 1988 to 1995, by David E. 
Lockwood and George Siehl.
    \18\ The presumption is that a private firm will perform more 
optimally than a Governmental one.
---------------------------------------------------------------------------
    Additionally, an aspect of organizational accountability is 
predictability, that is, that the entity created will behave as its 
creators expect. When Congress establishes an entity, Governmental or 
quasi-Governmental, it inevitably includes in the statutes the 
``purposes'' of the organization and provides the organizations with 
authorities to attain its purposes.
    In public administration parlance, there is a principal-agent 
relationship, wherein Congress (the principal) has established an agent 
(the entity) to execute the law. Quasi-Governmental entities sometimes 
behave unpredictably should they be established with starkly competing 
organizational imperatives. Governmental entities are to pursue policy 
objectives (e.g., National defense, poverty reduction, etc.); private 
firms pursue private objectives (e.g., profit, financial self-
perpetuation, etc.) Arguably, the Government-sponsored enterprises, 
Fannie Mae and Freddie Mac, serve as examples of the unpredictability 
of entities driven by competing Governmental (diverse housing policy 
goals) and private-sector imperatives (maximizing private shareholder 
value).\19\
---------------------------------------------------------------------------
    \19\ These GSEs' statutes contain five different public policy 
objectives. CRS Report R40800, GSEs and the Government's Role in 
Housing Finance: Issues for the 112th Congress, pp. 2-3. See also 
Koppell, The Politics of the Quasi Government, chapter 5; and 
Congressional Budget Office, Controlling the Risks of Government-
Sponsored Enterprises (Washington: GPO, 1991), chapter 1.
---------------------------------------------------------------------------
    Whether NISO would face strongly competing organizational 
imperatives is unclear.\20\ Unlike the GSEs, the NISO would be a not-
for-profit organization and would not have stockholders. Its objective 
is a collective good--improving security against cyber threats, an end 
which each stakeholder has an interest in but cannot attain alone. 
NISO's board would have both Governmental and private-sector 
representatives, whose interests may or may not coalesce.\21\
---------------------------------------------------------------------------
    \20\ As NISO resembles SEMATECH, Congress may find value in 
reviewing the performance of SEMATECH.
    \21\ Determining the alignment of interests among the board's 
Governmental and private-sector board interest goes beyond the scope of 
this memorandum and would involve cybersecurity policy and other 
considerations.
---------------------------------------------------------------------------
    The legal framework within which organizations operate can greatly 
influence their behavior by setting incentives and expectations for 
operations.\22\ Quasi-Governmental entities sometimes behave 
unpredictably due to their ambiguous legal nature. When Congress 
establishes a fully Governmental entity, such as an agency, many of 
entity's attributes are set by default. That is, absent statutory 
provisions exempting the agency from Federal laws and regulations, the 
agency is subject to them.\23\ The Federal Government-wide management 
laws are many, and include statutes such as the aforementioned 
Administrative Procedures Act, the various civil service employment and 
compensation statutes (5 U.S.C. 101 et seq.), and the Lobbying with 
Appropriated Monies Act (18 U.S.C. 1913).\24\ Government agencies' 
actions also are bound by various Constitutional limitations. 
Oppositely, when a private individual or group establishes a 
corporation, this private entity will not be subject to the general 
management laws that are applicable to Federal agencies.
---------------------------------------------------------------------------
    \22\ Thomas H. Stanton, ``Assessing Institutional Development: The 
Legal Framework That Shapes Public Institutions,'' in Robert Picciotto 
and Ray C. Rist, eds., Evaluating Country Development Policies and 
Programs: New Approaches for a New Agenda (Jossey-Bass, 1995), pp. 55-
68.
    \23\ Ronald C. Moe, ``The Importance of Public Law: New and Old 
Paradigms of Government Management,'' in Phillip J. Cooper and Chester 
A. Newland, eds., Handbook of Public Law and Administration (Jossey-
Bass, 1997), p. 46. To be clear Congress may exempt a Governmental or 
quasi-Governmental entity from coverage by a particular Government 
management statute. For example, in 1995 the Supreme Court considered 
the issue of distinguishing between a Governmental and private 
corporation. The National Railroad Passenger Corporation (AMTRAK) 
established by Congress (45 U.S.C. 451), and enumerated under 31 U.S.C. 
9101 as a ``mixed-ownership corporation'' (e.g., it was owned by both 
the private and Governmental shareholders), was sued by Michael Lebron 
for rejecting, on political grounds, an advertising sign he had 
contracted with them to display. Lebron claimed that his First 
Amendment rights had been abridged by AMTRAK because it is a Government 
corporation, and therefore an agency of the United States. AMTRAK 
argued, on the other hand, that its legislation stated that it ``will 
not be an agency or establishment of the United States Government'' and 
thus is not subject to Constitutional provisions governing freedom of 
speech. The Court decided that, although Congress can determine 
AMTRAK's Governmental status for purposes within Congress's control 
(e.g., whether it is subject to statutes such as the Administrative 
Procedure Act), Congress cannot make the final determination of 
AMTRAK's status as a Government entity for purposes of determining 
Constitutional rights of citizens affected by its actions. Michael A. 
Lebron v. National Railroad Passenger Corporation; 513 U.S. 374 (1995). 
The AMTRAK Reform and Accountability Act of 1997 (Pub. L. 105-134; 111 
Stat. 2570) removed AMTRAK from the GCCA list of mixed-ownership 
Government corporations.
    \24\ CRS Report RL30795, General Management Laws: A Compendium.
---------------------------------------------------------------------------
    The United States, then, ``has two distinctive forms of law: public 
law, which governs the activities of governmental bodies in their 
capacities as agents of the sovereign . . . and private law, which 
governs the relations of private parties with one another.''\25\ Thus, 
when Congress creates quasi-Governmental entities that are not clearly 
Governmental nor private sector, confusion may result as to which laws 
apply to the quasi-Governmental entity.\26\ To cite just four examples, 
quasi-Governmental entities have found themselves in legal disputes 
involving questions as to which courts may hear suits against them, 
which Government-wide management laws apply to them, to what extent 
they need to respect a private citizen's First Amendment rights, and 
the constitutionality of prohibiting the removal of their directors 
except for cause. \27\
---------------------------------------------------------------------------
    \25\ Moe, ``The Importance of Public Law: New and Old Paradigms of 
Government Management,'' p. 42.
    \26\ Statutes establishing quasi-Governmental entities often 
include provisions exempting the entity from a particular Government 
management law. SEMATECH, for example, was exempted from the Freedom of 
Information Act (5 U.S.C. 552). Yet, this effort at clarification may 
lead Federal overseers to question whether the statute's silence 
regarding other Government management laws implies that they are 
applicable to the entity. Currently, Congress is considering whether 
the Freedom of Information act ought to apply to the GSEs Fannie Mae 
and Freddie Mac since they are in Federal receivership and effectively 
Government-owned. See CRS Report R42080, Fannie Mae, Freddie Mac, and 
FOIA: Information Access Policy for the Government-Sponsored 
Enterprises, by Wendy Ginsberg and Eric Weiss.
    \27\ Respectively, see Michael T. Maloan, ``Federal Jurisdiction 
and Practice: The American National Red Cross and the Interpretation of 
`Sue and Be Sued' Clauses,'' Oklahoma Law Review, vol. 45, 1992, pp. 
739-760; Animal Legal Defense Fund v. Shalala, 104 F.3d 424 (D.C. Cir 
1997); Michael A. Lebron v. National Railroad Passenger Corporation 
(513 U.S. 374 (1995)); and Free Enterprise Fund, et al. v. Public 
Company Accounting Oversight Board, et al., 561 U.S. ____, 130 S.Ct. 
3138, 177 L.ed.2d 706 (2010).
---------------------------------------------------------------------------
    It is difficult to anticipate how predictably the proposed NISO 
would behave due to its ambiguous nature. The draft legislation for 
NISO does not explicitly state whether it is a Governmental entity or a 
private-sector entity. By virtue of the provision that the entity 
should charter itself (presumably under State law), it might be assumed 
that it is intended to be private. The legislation also exempts the 
NISO from the anti-trust provisions of the Clayton Act (15 U.S.C. 12), 
a statute which apply to private-sector firms.
    However, the draft legislation also would make non-applicable to 
NISO two Government management statutes, the Freedom of Information Act 
(5 U.S.C. 552) and the Federal Advisory Committee Act (5 U.S.C. 
Appendix). Furthermore, as NISO would be designed to serve as an 
``information-sharing'' venue regarding cybersecurity issues, the draft 
legislation does provide for the protection of this information. It 
would forbid ``any officer or employee of the United States or any 
Federal agency'' from knowingly disclosing information regarding a 
cyber threat. Violators could be removed from their positions, fined, 
and imprisoned. Whether such information protections would apply to all 
NISO directors and employees is unclear. 

    Mr. Lungren. Thank you very much for the testimony of each 
member of the panel. I appreciate you staying within the time 
limits assigned. We will have a round of questions and I will 
start with 5 minutes.
    Dr. Nojeim, thank you--or Mr. Nojeim, thank you very much 
for your testimony. I wonder if you might elaborate on why it 
is important that the DHS is the lead agency in charge of 
civilian cybersecurity. We generally speak about the notion 
that under our Constitutional Governmental structure, it is 
both explicit and implicit that there is civilian control of 
the military. This administration engaged in a memorandum of 
understanding between DOD and DHS so that you have some cross-
fertilization there, but I think they have done a pretty good 
job of making sure that we don't violate the notion of civilian 
control of the military. We happen to think it was important in 
this bill to make it clear that DHS was in charge of civilian 
cybersecurity. But I wonder if you would elaborate a little bit 
on that issue.
    Mr. Nojeim. Thank you for the question. I agree, the bill 
does cement DHS as the lead for civilian cybersecurity 
operations. That is important because those operations need to 
be transparent, and they need to be transparent because the 
private sector controls about 85 percent of the critical 
infrastructure that needs to be protected. It needs to be able 
to trust that information it shares will be used for the proper 
purposes, and it needs to know what is going on because that 
will encourage the private sector to cooperate.
    In a military-led operation, something led by NSA or Cyber 
Command wouldn't be able to build that trust, because for 
otherwise legitimate reasons they operate secretly. So I think 
the administration is right to try to draw on the expertise of 
Cyber Command and NSA without putting those agencies in control 
of a civilian program.
    Mr. Lungren. Directed to both Dr. Shannon and Ms. McGuire, 
during the both formal and informal discussions we had, both 
the Republican task force and this committee, and other things 
that we have done with our Democratic counterparts in the past, 
there seem to be at least to me a consensus that with the 
structures we already have, as good as they may be in the 
different industry sectors, the idea that timely access of 
information of threat from the Government to the private sector 
has been an issue, and the issue of trust; that is, that we 
have not established the mechanism by which the private sector 
is encouraged to share more of their information in a timely 
fashion, I guess in some ways because we haven't articulated 
the limits of the use of that information. Why are you going to 
self-report if there is some liability on the other end? So on 
our efforts in coming up with this draft, we came up with a 
concept of NISO.
    Can you give us your thoughts on, if you disagree or if you 
agree, why this shouldn't be done by already existing 
structures, or what problems we have with the suggestion we 
have got in the bill right now? Ms. McGuire.
    Ms. McGuire. So first off, I think there is a couple of 
issues that we see on a regular basis with the current system. 
One is that we don't see that timely actionable information 
coming from the Government flowing to industry. So we have a 
little bit of a chicken-and-an-egg problem here. Industry 
doesn't see valuable information coming from Government, 
therefore industry doesn't perceive the need to provide 
information back to the Government.
    But we also see a situation where industry is not 
necessarily incentivized to provide information to the 
Government. There is not a clear articulation of what kind of 
information the Government needs from industry. I have actually 
sat in meetings where I have had Government folks actually say 
to me: Well, just give us everything. Well, that is impossible. 
I don't think the Government has enough data centers to store 
all the information that industry has, nor do they want it.
    Mr. Lungren. Nor do you want to give it all to them.
    Ms. McGuire. Nor do we want to give it all to them. 
Exactly. So we have a little bit of that situation. So I think 
that this notion of incentivizing industry to share more 
information is a really important concept that is articulated 
in the bill.
    To your question about why current structures in existence 
shouldn't be used for the NISO, my view is that we already have 
private industry engagement and buy-in to a NISO-like concept 
and that we really do need to build on those existing 
structures and frameworks that we have in place. So if there is 
a way to articulate this NISO framework that includes those 
existing structures, I think you will get a lot more buy-in 
from industry than trying to set up a separate new entity.
    Mr. Lungren. Dr. Shannon.
    Mr. Shannon. Thank you. I have four quick points. One is 
the notion of sharing information has been evolving for over 2 
decades, and the need for timeliness and what information there 
is, the technologies involved, the players involved, the civil 
liberties issues involved, have been evolving. So I think that 
is part of why you see in that second diagram this jumble of 
links is kind of what has accrued over the decades. This sort 
of legislation I think is another important attempt to try and 
get it to the right point.
    Incentives are about encouraging the emergence of a capable 
organization. We are not going to know, a priori, what the 
right incentives are, so I suggest soft incentives rather than 
hard incentives, such as tax breaks and such, to encourage 
people to consider doing the right thing. As you see them doing 
the right thing, then you can provide for their encouragement 
for those lagging behind.
    As Ms. McGuire mentioned, I think feedback, timely feedback 
from the Government to private entities is a missing 
capability, and that really will cement the deal. It is about 
valued propositions on both sides. Regardless of how much the 
private industry is paying up front, if anything, the fact is 
they invest a tremendous amount in cybersecurity on their own, 
and so any involvement has a price and they want to know kind 
of how they can benefit from that for the benefit of their 
shareholders and their customers. Thank you.
    Mr. Lungren. Ms. Clarke is recognized for her questions.
    Ms. Clarke. Thank you, Mr. Chairman. Thank you to our 
panelists for your testimony here this morning.
    My first question is posed to Ms. McGuire and to Dr. 
Shannon and to Mr. Nojeim. There is general agreement that 
enhanced information sharing is key to improving cybersecurity. 
For DHS' part, it has worked diligently to support sector ISACs 
as forums for information sharing and has stepped up its cyber 
operations with the creation of NCIC and US-CERT. There is 
limited cybersecurity resources, financial and personnel, in 
the private sector and Government.
    If the NISO was established, how do we guard against these 
limited resources being diverted from existing efforts to the 
new platform?
    Ms. McGuire. Well, I think that your statement about the 
limited resources is a particularly challenging area for the 
Department of Homeland Security. As a former employee, I 
actually was the director for awhile, as well as a deputy 
director of the National Cybersecurity Division in the US-CERT, 
with first-hand knowledge and experience of some of those 
resource challenges. I think they are particularly challenged, 
though, by a lot of staff turnover amongst their leadership. 
This is creating a continuity issue there. So the progress that 
they have made thus far with the NCIC, while I think it is 
commendable given the current situation, there is still a long 
way to go. In particular, dealing with private industry, the 
level of which we are seeing information sharing has not 
matured to a level where I think it is creating the kind of 
value proposition that Dr. Shannon just talked about, and that 
effort really needs a focused concerted effort by the 
Department and its leadership if we are going to realize this 
information sharing. I am not even going to say nirvana, just a 
progress step forward.
    Mr. Shannon. Thank you. There are two elements. One is that 
there is a desire to reach a broad spectrum very quickly. Some 
of the programs that you talked about, the NCIC and the DIB 
programs, for example, are just beginning to scale and still 
haven't demonstrated what the challenges are going to be in 
reaching full scale. So I see the current NISO effort as 
being--it will help existing efforts by in some sense taking 
the pressure off and trying to reach a broader audience faster, 
as opposed to waiting for these smaller efforts to mature.
    Mr. Nojeim. We think that an incremental approach is called 
for, an examination of why information sharing under the 
current structures isn't working. Then once those problems are 
identified, Congress should ask, well, does NISO address each 
one? If it doesn't, then you are creating a redundant 
information-sharing entity. But if it does, you are creating 
one that will solve problems. So that is the approach that we 
would recommend.
    Ms. Clarke. I fully understand where all three of you are 
coming from, but the issue, though, is resources, right? So if 
we are at a point where resources are limited and there is a 
possibility that there could be some redundancy, how do we sort 
of reconcile that? You could have a situation where you are 
spread so thin that no one meets their mission, and I don't 
know whether that has been a consideration, given the entities 
that we currently have that are working on these efforts--we 
are now considering an additional, and how we would make sure 
that they have what they need to meet their mission.
    So I wanted to just sort of get a sense of, you know, is 
there something innovative that you can think of that would 
maybe make one of the entities self-funding, I don't know. But 
it would appear to me that if we have all of these entities out 
there, many of whom have not fully stood up yet but are going 
to require a resource in order to meet their mandates, that is 
something that we ought to consider up front.
    Mr. Shannon. If I might add, setting measures of success 
and expectations of success I think is important. It goes back 
to being operationally and scientifically valid, to know what 
the intention of the organization is and how you will know when 
that organization's mission is being met. As I mentioned, 
because of the evolving threat, landscape, and technologies, 
what works today may not work as well tomorrow. So it is 
difficult to divine what the right organization is today. So I 
encourage you to consider multiple efforts such as we do have 
today, but I would agree that consolidation to the current 
budget environment is important.
    Ms. Clarke. Thank you, Mr. Chairman.
    Mr. Lungren. Thank you. The gentleman from Texas, Mr. 
McCaul, is recognized for questioning.
    Mr. McCaul. Thank you, Mr. Chairman. Let me commend you for 
this legislation. I think it provides clarity and guidance as 
to who should be in charge. For a long time we have talked 
about who is in charge of cybersecurity in the Federal 
Government. For a long time NSA was not coordinating with the 
Department of Homeland Security, and they are now.
    But when we talk about the issue of information sharing, 
which is critical to protecting these infrastructures, that is 
where I think this bill really comes into play. Mr. Nojeim, you 
talked about civilian control, and I agree with that 
assessment. There is a bill that was passed out of the 
Intelligence Committee that does not really specify which 
agency within the Federal Government should be in charge of 
this effort of information sharing. Some would argue that the 
NSA, because of the pilot program, the Defense industrial base 
pilot program, that NSA is the best agency to conduct that.
    I tend to disagree with that assessment, because as you 
mentioned, civilian control is important here. In terms of 
international sharing of information, I don't think going to 
the intelligence community is going to be the right answer to 
this issue.
    So with that, I just want to throw that out to the panel. 
Who do you see is the best agency to be in charge of this 
critical component of information sharing? I personally think 
it should be DHS. Tell me why I am right, or maybe why I am 
wrong, in that assessment.
    Mr. Nojeim, if you want to lead on this.
    Mr. Nojeim. I will start. As I said a minute ago, civilian 
control will promote the transparency that is essential to 
building cooperation and trust with the private sector. You got 
to have the private sector involved because they own and 
operate most of the critical infrastructure.
    But thinking for a minute through what the House 
Intelligence Committee did, one thing they did that seems like 
a good idea is to unlock the classified information, 
particularly the classified attack signatures that the NSA has, 
for the benefit of industry. It is important to accomplish that 
in legislation. If that legislation stopped there, with this 
flow of information from the intelligence agencies to private 
network operators who could then use it to protect their 
systems, we would support it.
    The problem with that bill is that it opens a flow back to 
the intelligence agencies and to Cyber Command, and to other 
Governmental agencies that are not specified at all, of 
information from the private sector that could include regular 
user communications. It is important to limit that flow back, 
and I think that your bill, the bill that you are looking at, 
could do that with some very targeted amendments.
    Mr. McCaul. Dr. Shannon and Ms. McGuire, what is your 
assessment in terms of who should be the lead agency?
    Mr. Shannon. I have to say no comment, thank you. We are a 
Federally-funded research and development laboratory.
    Mr. McCaul. I understand. Ms. McGuire, you may have the 
same response.
    Ms. McGuire. We believe that a civilian agency is the right 
and appropriate authority for this entity. As a global private 
company, it is very difficult for us to operate in a global 
playing field if we have this kind of interaction direct with 
some of the other agencies.
    Mr. McCaul. For a long time we have had the ISACs. The 
Information Sharing Analysis Centers have been kind of the 
vehicle for information sharing in the past. I think this bill 
actually provides again that clarity that I think is needed.
    The ISACs have not been totally functional. They haven't 
worked as I think they were expected to work. I think this is a 
good opportunity to really put something in place in 
legislation that can be a real vehicle for information sharing. 
Do you all agree with that assessment?
    Ms. McGuire. While I agree that the NISO as a concept and a 
framework can seek to accomplish that, I do have concerns about 
ensuring that those existing entities, such as the ISACs and 
the sector coordinating councils, that industry has put so much 
effort and resources into over the last 10 years, do not go by 
the wayside. I am a firm believer that we have to improve those 
entities. I think that the information sharing and the direct 
engagement with Government has not always been, shall I say, as 
positive between the ISACs and the Government agency of DHS. I 
would be happy to share some specific examples with you after 
this hearing when there is more time.
    Mr. McCaul. How would you recommend merging--I see my time 
is about expired--how would you recommend merging the 
existing--you know, the ISACs--with this National information 
sharing organization?
    Ms. McGuire. Well, I think that is something that we need 
to explore more in depth, because those ISACs for the most part 
are privately funded, privately incorporated, industry-owned 
and -operated entities, and so I think we need to have that 
dialogue of how we would incorporate them into this framework.
    Mr. McCaul. Dr. Shannon, do you have any comments?
    Mr. Shannon. One comment is, again, going back to measures 
of expectations. When you stand up, whether it is the ISACs or 
any other entity over the last couple of decades, there were 
original intentions about what they should be able to achieve. 
Some of the things they were able to achieve and some things 
they were not, for various reasons. So I think doing a critical 
assessment at the current time of what those needs are would be 
helpful. I mean that is part of what CERT and the SEI has been 
involved in in assisting the Government with the DIB 
evaluations that have gone on. It is excruciating, but I think 
in the end it was very valuable to policymakers.
    Mr. McCaul. We look forward to your comments following up 
on how we can best merge these entities. Mr. Chairman, my time 
is expired. Thank you.
    Mr. Lungren. Thank you. Mr. Walberg is recognized for his 
questions.
    Mr. Walberg. Thank you, Mr. Chairman. Living in a 
delegation who has the dubious distinction of having the 
Chairman of the Intelligence Committee in our delegation, with 
a perverted sense of just giving us enough information about 
cybersecurity potential attacks and causing us to not sleep as 
much as he, I think that is a challenge that we have. So I 
appreciate your efforts here and I appreciate the panel being 
here today as well.
    Mr. Kosar, let me ask you, is there anything in the draft 
language regarding the structure of NISO that in your opinion 
would prevent the NISO from accomplishing its mission?
    Mr. Kosar. It is difficult to say. I think one underlying 
requirement for the organization to be functional is that 
organizations have to feel it is going to be a safe space where 
they can share information and that the information is not 
going to get out. I looked over the information protection 
provisions, and I confess I just didn't quite fully understand 
whether there were sufficient incentives to ensure that NISO 
participants did not leak or illicitly share information and 
cause damage to members.
    Mr. Walberg. How could that be remedied?
    Mr. Kosar. I honestly don't know at this point. I would 
have to think further about it and consult with my colleagues.
    Mr. Walberg. Okay. You were going on. I apologize for 
jumping in.
    Mr. Kosar. Oh, sure. No, I think one interesting aspect 
that I gleaned from looking at this is that if NISO is able to 
get up and running and to gain a reputation for appearing to be 
a very sound organization, private-sector members might want to 
flock to be part of this organization, not only because they 
could get information from it which is valuable to it, but also 
because it might kind of create a sort of Good Housekeeping 
Seal of Approval for companies who are participants. So that 
might be a pull factor and encourage collaboration.
    Mr. Walberg. Thank you.
    Ms. McGuire, you evidently have a lot of personal 
experience with DHS and its cybersecurity mission. With regard 
to the authorities provided to DHS in the draft bill, are there 
any left out?
    Ms. McGuire. I don't think so. I mean, I read the draft 
legislation in detail, of course, in preparing for the hearing 
and I don't see anything there that--or didn't see anything 
that was missing, no.
    Mr. Walberg. Well, a credit to the bill sponsor then. Let 
me follow up and ask you if you could explain what you mean by 
risk assessment and any examples that you might have where a 
risk assessment approach has been used to protect against the 
cyberthreats.
    Ms. McGuire. So when we talk about risk assessment we are 
really looking at what are the threats, vulnerabilities, and 
consequences of any particular threat vector. With regard to 
specific examples where risk assessments have been used, the IT 
sector endeavored in 2009 to develop a sector-wide, not a 
company-by-company, but a sector-wide risk assessment to look 
at specific risk to the IT sector at large. We worked in 
concert, public-private partnership, with DHS to develop that 
risk assessment and we identified some specific areas in DNS 
routing, identity management, supply chains, some specific 
areas that we felt that we needed as a sector to focus some 
more detail on.
    As a follow-on to that work, we developed some specific 
guidance that was released earlier this year to provide to IT 
sector companies' owners and operators, to help them focus on 
particular risks that we saw from a National level to the 
sector. Interestingly enough, what that risk assessment, 
though, demonstrated was that we as an industry were largely 
resilient because we had a lot of redundancies and processes in 
place to deal with incidents such as cybersecurity attacks and 
things of that nature, but there still were areas that we need 
to improve on.
    So from a risk assessment standpoint, we believe that that 
allows companies to focus in their resources and efforts on 
what they should potentially be protecting according to that 
National-level risk.
    Mr. Walberg. Thank you.
    Mr. Nojeim, how important do you think it is for the 
Department of Homeland Security to identify sector-specific 
cybersecurity risks?
    Mr. Nojeim. I think that having a sector-specific approach 
helps DHS modulate its level of regulation of cybersecurity 
information systems. So, for example, you wouldn't want, as 
Cheri said earlier, you wouldn't want a situation where the 
same kind of security performance standard is applied to a 
nuclear power plant as is applied to something that is much 
less dangerous but it fits within a definition of covered 
critical infrastructure. So DHS needs to have the flexibility 
to adopt a risk-based approach, and I think that the bill gives 
it that flexibility.
    Mr. Walberg. Thank you.
    Mr. Lungren. We have time for a second round. So I just 
remember the old deal about tomato-tomahto, we now have 
``NESO'' and ``NISO.'' I asked my staff what is it, and they 
said, Well, since you wrote the legislation you can say. We 
will wait until later until we figure that one out.
    Mr. Nojeim, we talked about protection of privacy and civil 
liberties, how important they are. Would limiting the type of 
information that is shared with the NISO and then limiting how 
that information can be used by members, including the Federal 
Government, address your concerns; and how would you define 
that?
    Mr. Nojeim. I think NISO can be nice to civil liberties. 
The way it could do that, I would define it as, first, I would 
start with attack signatures. Everybody agrees that cyber 
attack signatures ought to be freely shareable. There may be a 
need also to define cyberthreats with reference to actually 
overcoming a technical control, something that is in place to 
stop unwarranted access to a database. We think that this 
information can be defined, we think it can be defined broadly 
enough to permit the share of information that is necessary, 
and we have provided some language to your staff and we will 
continue to work with your staff on that language.
    Mr. Lungren. Ms. McGuire and Dr. Shannon, if NISO is going 
to be successful, there has to be some value there for the 
private sector as well as for the Government. But we are the 
Government setting this concept up, so I suppose we should be 
appealing to the private sector. So it has got to be value.
    So as I think, Ms. McGuire, you mentioned, it has got to be 
something that is unique or something that they can't get 
otherwise, because otherwise why buy into this?
    On the other hand, in terms of the participation of the 
private sector, we could set up rules, as suggested by Mr. 
Nojeim, to say this is the limitation on the use of the 
information by the Government that has been given to them by 
the private sector.
    But does the concept of subsequent liability protection 
come into play, or is that something we don't have to discuss? 
If I'm making a decision for myself or my company as to whether 
I should share this information with the Government, even 
through this entity, I might be dissuaded if I thought that is 
going to subject me to a slew of lawsuits. Do we have to deal 
with that concept? I know there are other things to figure out. 
Have they followed proper procedures and so forth before they--
but is that something that is necessary, or is that a concept 
that is redundant or unnecessary?
    Mr. Shannon. As I testified back in June, the notion of 
safe harbor protections I think is important. You want to free 
the people involved in incidents and collecting using the 
information.
    Mr. Lungren. I know it is important. Is it crucial?
    Mr. Shannon. I think it is. You want to enable 
organizations to do the right thing.
    Mr. Lungren. Ms. McGuire, is it necessary?
    Ms. McGuire. I would agree with that, yes.
    Mr. Lungren. Mr. Nojeim, do you have any problems with 
that?
    Mr. Nojeim. I think it is important that there be 
consequences for breaking the rules. If the rules are followed, 
I think there should be immunity for people who are following 
the rules. For people who are breaking the rules, I think there 
should be consequences. Without them, you put companies between 
a rock and a soft place.
    Mr. Lungren. Ms. Clarke.
    Ms. Clarke. Thank you, Mr. Chairman.
    Dr. Kosar and Mr. Nojeim, in your testimony, you mention 
that, as designed in the proposed legislation, it would be 
difficult to know how the NISO would behave. The lack of 
predictability, even as the Federal Government invests 
significant resources, is a concern. Please explain the 
possible risks to the Government of establishing this quasi-
Governmental entity without specificity as to its range of 
activities and responsibilities to its members; more 
especially, DHS.
    Mr. Kosar. Well, I guess the first question that I would 
have is whether or not the NISO would see strong incentives to 
coordinate its activities with the Department and to be 
responsive to the Department's needs, or would it have 
incentives to basically act otherwise?
    A second issue or question I would have is: If this 
organization does not stand up well, will it have long-term 
negative ramifications for future efforts to do something on 
this? Will it kind of poison the well in some way, shape, or 
form? As I mentioned earlier, it seems like this kind of 
consortium for sharing this information is heavily based upon 
trust, and if something gets done incorrectly, there could be a 
lot of very bad feelings all around.
    Third is the question of predictability. One thing I 
noticed in the mission for this organization is that on the one 
hand it is to be a place where information and advice is to be 
shared. But it is also a place where there seems to be R&D 
activities that will be undertaken to develop new technologies 
to aid in cybersecurity production.
    So you have kind of two different operational activities, 
and I guess the question that entered my head is, these new 
technologies, are these going to be sold to companies? Will 
they be given to members of NISO? Will this organization split 
itself off and create a for-profit side organization?
    It is not unprecedented that organizations created by the 
Federal Government have in the past, without Congress' 
expecting it, to have split themselves and have divided 
themselves into multiple organizations. So I guess those would 
be my thoughts.
    Mr. Nojeim. I actually think that the bill includes a 
number of provisions that will allow the Government to protect 
its own interests in NISO. First, it reserves a number of seats 
on the board of directors to Governmental entities. Many of 
NISO's member entities, the ones who receive information, will 
be Governmental entities, State, and local, and Federal.
    It also gives the Department of Homeland Security the 
ability to partially fund NISO. One could discuss whether 15 
percent is enough or not, but it is a significant chunk of 
money. But the Government has something that NISO members will 
want. It has classified information about attacks that in a way 
give it a lot of leverage, maybe more leverage than it ought to 
have, over NISO's operations.
    So I think that as it is structured, there is actually 
enough--there are enough provisions in the bill to protect the 
Government's interests in the NISO.
    Ms. Clarke. So in other words, you are saying that the way 
that the bill is currently constructed it should mitigate risk; 
is that what you are saying? Because I'm asking about possible 
risk.
    Mr. Nojeim. I think you were asking about whether the bill, 
as structured, protects the Government's interests in the NISO. 
My answer is I think it does, because I think it gives the 
Government substantial authorities. In fact, if we were 
drafting the bill, we would probably more limit the 
Government's participation and make it more clearly a 
privately-run entity as opposed to a Governmental entity.
    One of our biggest concerns is the flow of personally 
identifiable information to Government members of NISO through 
the NISO entity.
    Ms. Clarke. Thank you.
    Then just a final question. Dr. Kosar, you mentioned that 
the legal framework within which organizations operate can 
greatly influence their behavior by setting incentives and 
expectations for operations. You are a specialist in American 
Government, and in your opinion how does the legal framework 
described in this proposed legislation for NISO lend itself to 
defining the actions, incentives, and goals of the 
organization?
    Mr. Kosar. Well, I really appreciate the point brought up 
just a moment ago about DHS possibly having a lever for dealing 
with the NISO by virtue of its access to classified information 
policy. I think that is a subtle insight.
    This entity, as structured, is primarily private-sector; 
and so presumably, its incentives lie with the perceived self-
interest of the members.
    Just going back to the example of SEMATECH, created in 
1987, that was an organization--that legislation is 
substantially similar to this one. It created an organization 
of kind-of like firms, firms that produced, manufactured, 
semiconductors here in the United States. It looked at them and 
said, you have a shared interest in upping your technology and 
jumping forward, vis-a-vis Japan. This was a shared goal, and 
you guys can work together on this, you just need a little 
Government coordination.
    Here we have, I think, members that are a little more 
diverse than those that were participating in SEMATECH. I guess 
an open question for me is whether or not the individual 
incentives of these organizations align as neatly as they did 
with SEMATECH. Because of this organization's success it would 
seem to me to be largely dependent on the activities of the 
private-sector parties.
    Ms. Clarke. Thank you, Mr. Chairman.
    Mr. Lungren. Thank you very much. I think the questions of 
the hearing have indicated the fact that we are going into a 
new area here. We are trying to create a platform that makes 
sense for both the private sector side and the Governmental 
side. It is creating a mechanism in which there are incentives 
so that all will cooperate.
    We thank you for your thoughts on this. We seek your 
thoughts in the future as we move forward. We intend to move on 
this because the issue is one that cannot wait. I am encouraged 
by the interest that we have received from our colleagues on 
both sides of the aisle, from people in the administration, 
from those in the private sector, because I think that is a 
good sign that while we are certainly not perfect, we are at 
least moving forward with a concept in an area that needs to be 
dealt with.
    I want to thank all witnesses for your valuable testimony 
and the Members for their questions.
    The Members of the subcommittee may have some additional 
questions for you. We would ask if we would submit them to you, 
that you would respond to these in writing. The hearing record 
will be held open for 10 days.
    The subcommittee stands adjourned.
    [Whereupon, at 11:25 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
